<html>
<title> - WHAT REGULATIONS ARE NEEDED TO ENSURE AIR SECURITY?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
          WHAT REGULATIONS ARE NEEDED TO ENSURE AIR SECURITY?
=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY POLICY, NATURAL
                    RESOURCES AND REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 27, 2001

                               __________

                           Serial No. 107-127

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform











                           U.S. GOVERNMENT PRINTING OFFICE
82-548                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

Subcommittee on Energy Policy, Natural Resources and Regulatory Affairs

                     DOUG OSE, California, Chairman
C.L. ``BUTCH'' OTTER, Idaho          JOHN F. TIERNEY, Massachusetts
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEVEN C. LaTOURETTE, Ohio           PATSY T. MINK, Hawaii
CHRIS CANNON, Utah                   DENNIS J. KUCINICH, Ohio
JOHN J. DUNCAN, Jr., Tennessee       ROD R. BLAGOJEVICH, Illinois
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Dan Skopec, Staff Director
                Barbara F. Kahlow, Deputy Staff Director
                        Regina McAllister, Clerk
                   Alexandra Teitz, Minority Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 27, 2001................................     1
Statement of:
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida...........................................     6
    O'Brien, John, director of engineering and air safety, Air 
      Line Pilots Association, International; Patricia Friend, 
      president, Association of Flight Attendants; Mark Roth, 
      general counsel, American Federation of Government 
      Employees; and Paul Hudson, executive director, Aviation 
      Consumer Action Project....................................    70
    Yeffet, Isaac, former Director of Security, El Al Airline; 
      Edward A. Merlis, senior vice president, legislative and 
      international affairs, Air Transport Association of America 
      Inc.; and Todd Hauptli, senior vice president, legislative 
      affairs, American Association of Airport Executives........    16
Letters, statements, etc., submitted for the record by:
    Friend, Patricia, president, Association of Flight 
      Attendants, prepared statement of..........................    86
    Hauptli, Todd, senior vice president, legislative affairs, 
      American Association of Airport Executives, prepared 
      statement of...............................................    40
    Hudson, Paul, executive director, Aviation Consumer Action 
      Project, prepared statement of.............................   105
    Merlis, Edward A., senior vice president, legislative and 
      international affairs, Air Transport Association of America 
      Inc., prepared statement of................................    35
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     9
    O'Brien, John, director of engineering and air safety, Air 
      Line Pilots Association, International, prepared statement 
      of.........................................................    73
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................     3
    Roth, Mark, general counsel, American Federation of 
      Government Employees, prepared statement of................    96
    Yeffet, Isaac, former Director of Security, El Al Airline, 
      prepared statement of......................................    18











          WHAT REGULATIONS ARE NEEDED TO ENSURE AIR SECURITY?

                              ----------                              


                       TUESDAY, NOVEMBER 27, 2001

                  House of Representatives,
  Subcommittee on Energy Policy, Natural Resources 
                            and Regulatory Affairs,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Doug Ose 
(chairman of the subcommittee) presiding.
    Present: Representatives Ose, Shays, Tierney, and Kucinich.
    Staff present: Dan Skopec, staff director; Barbara Kahlow, 
deputy staff director; Regina McAllister, clerk; Alexandra 
Teitz, minority counsel; and Earley Green, minority assistant 
clerk.
    Mr. Ose. Good afternoon. Welcome to the subcommittee 
hearing.
    The tragic events of September 11, 2001, have shaken the 
confidence of the U.S. Government and its citizens in the 
Nation's air security. Immediately after September 11th, the 
President and Congress began to examine the existing system, 
including the laws, regulations and actual practices governing 
air security. Much was found to be lacking. Some changes were 
made immediately by the President, such as having more Federal 
law enforcement officials on airplanes and in airports. Other 
changes were quickly made by the airlines, such as locking all 
cockpit doors.
    On November 19th, the President signed a comprehensive 
Aviation and Transportation Security Act written by this 
Congress. This law places responsibility for air security in 
the hands of the U.S. Department of Transportation. Within 1 
year, DOT is required to primarily use Federal employees for 
passenger and baggage screening. In addition, the law addresses 
many other areas of air security.
    Today, we plan to examine how to make this new system work. 
As we are talking about people's lives, there is no room for 
error. We will hear from an expert in air security and other 
witnesses representing the airlines, airports, pilots, flight 
attendants, and consumers about what regulations are needed to 
ensure air security.
    Federal regulations specify detailed procedures to ensure 
uniform implementation of laws. The new law establishes 
``emergency procedures'' allowing the DOT to issue interim 
final regulations without any public notice or comment. Today's 
hearing provides a useful forum for congressional and public 
input into the regulatory decisionmaking process that is 
currently under way.
    Even before the Airline Deregulation Act of 1978, there 
were minimal Federal protective regulations governing air 
security. In 1981 DOT's Federal Aviation Administration issued 
minimal regulations on airplane operator security, including 
less than one page on ``screening of passengers and property.'' 
Currently, FAA has only one page of codified rules on this 
subject. Also, FAA has noncodified directives and customized 
provisions in its contracts with each of the airlines since 
airlines to date have been responsible for air security, 
including screening of passengers, carry-on baggage and checked 
baggage. FAA's approach led to nonuniform and unpredictable 
screening practices across airlines.
    Following the July 1996 TWA Flight 800 airplane crash 
shortly after takeoff from JFK in New York, in October 1996, 
Congress passed the Federal Aviation Reauthorization Act of 
1996. This law required FAA to certify companies providing 
security screening and to improve the training and testing of 
security screeners through development of uniform performance 
standards for providing security screening services. Even after 
a November 2000 law established a deadline for FAA to issue an 
implementing rule for this 1996 law, FAA failed to do so. I am 
amazed that, in over 5 years, FAA has failed to issue a final 
rule on certification of screening companies.
    The new administration has realized there is a problem. In 
its April 2001, U.S. Department of Transportation Performance 
Report Fiscal Year 2000 and Performance Plan Fiscal Year 2002, 
DOT stated it did not meet its 2000 performance target for 
aviation security and, ``screener performance has not improved 
enough.''
    To ensure the most effective approach, the new law provides 
for a 2-year pilot program at five airports to test different 
screening approaches using private security firms instead of 
Federal employees. In addition, the law provides, after a 3-
year period, an option for any airport to meet strict Federal 
standards for passenger and baggage screening by using private 
security firms instead of Federal employees.
    The new law also includes provisions on many other aspects 
of air security, such as hiring criteria, identification and 
screening of airport employees, employee training, identifying 
passengers and the like.
    I look forward to the testimony of our witnesses today on 
what DOT should include in its air security regulations to 
ensure uniformity and maximum protection for airport and 
airline employees as well as passengers. Ladies and gentlemen, 
I travel every single weekend. This is a critical issue. This 
hearing is very timely.
    I am pleased now to recognize my colleague from 
Massachusetts, Mr. Tierney, for 5 minutes.
    [The prepared statement of Hon. Doug Ose follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Chairman, and thank you for 
holding this hearing on security of air travel. This is, as you 
said, a timely and important topic.
    I also want to thank our witnesses that are going to share 
their expertise with us today and am particularly pleased to 
welcome our colleague, Mr. Mica.
    The Aviation and Transportation Security Act is a major 
victory for the American people. This is legislation which, if 
done right, will help restore public confidence in the safety 
of our airlines. It can also give our economy a needed boost by 
encouraging air travel and promoting other hospitality sector 
businesses, including travel agencies, hotels, and restaurants.
    The Aviation and Transportation Security Act establishes a 
national system for air security. Security screeners will now 
be able and trained professionals working for the Federal 
Government who will meet uniform high performance standards. 
Federalization of the security system should also promote 
efficient sharing of intelligence information, a clear chain of 
command and accountability for maintaining security in and 
around airplanes and airports. The American people 
overwhelmingly supported full Federalization of aviation 
security functions, and I am pleased that Congress has 
delivered these protections to the public.
    The law also requires other important measures to protect 
our aviation system. It will expand the Federal Air Marshal 
Service, require criminal background checks of all persons with 
access to secured areas, and mandate the reinforcement of all 
cockpit doors. All checked baggage must be screened by 
explosive detection equipment by the end of next year, and 
checked baggage must be screened through other means in the 
interim.
    The Aviation and Transportation Security Act establishes a 
new Transportation Security Administration within the 
Department of Transportation, and it is charged with carrying 
out these provisions. The TSA has a lot of work to do under 
difficult circumstances.
    This hearing could have been a useful forum for us to hear 
from the Department of Transportation and give the Department 
and TSA guidance on their next steps. It is unfortunate that no 
representative of the Department chose to be with us here 
today. Nevertheless, there are several points that I urge the 
Secretary of Transportation to bear in mind as he implements 
this law.
    The new Federal security system gives us an excellent 
opportunity to help those in the airline industry who have lost 
their jobs since September 11th. When hiring Federal security 
personnel, we should give first priority to those in the 
airline industry who have been laid off. I have cosponsored 
legislation, H.R. 3067, to give these workers priority; and a 
version of that provision was included in the Aviation security 
bill passed by the House. While that provision is not in the 
final law, the Secretary of Transportation has the authority to 
help those laid-off workers by giving them priority for the new 
jobs, and I urge him to do so.
    It is also vitally important that we provide Federal 
security personnel with appropriate compensation and the 
benefits that we provide all other Federal workers. Uniform 
Federal benefits are a matter of equity, and they are necessary 
to attract and to retain a high caliber of dedicated people to 
perform those critical security functions.
    The Aviation and Transportation Security Act conference 
report included an expectation that the Secretary will 
establish benefits and conditions of employment for Federal 
security screeners. The report also stated that these Federal 
workers should have access to Federal health benefits, life 
insurance, retirement benefits, and workers' compensation 
benefits as well as whistleblower protections. I encourage 
Secretary Mineta to comply with the Congress's directive in 
this regard, and I thank you for the opportunity to 
participate, Mr. Chairman.
    Mr. Ose. Thank you, Mr. Tierney.
    We are pleased today to be joined by the chairman of the 
Subcommittee on Aviation and Transportation and Infrastructure, 
the distinguished gentleman from Florida, Mr. Mica. Welcome.

 STATEMENT OF HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Mica. Thank you, Mr. Chairman, and also thank you, Mr. 
Tierney. I am pleased to join you here today. I think this is a 
very important hearing which is focusing on what regulations 
are needed to ensure our air safety, and I commend you and the 
subcommittee on your important oversight responsibility and 
work. I want to again thank you for allowing me to testify 
first.
    We have just gotten through putting together in a record 
timeframe a major overhaul of our Nation's aviation and 
transportation security system and I think this hearing 
couldn't be more timely, particularly today as you focus on the 
important issue of rulemaking in aviation security.
    I believe one of the most momentous provisions of the 
recently signed Aviation and Transportation Security Act is the 
unprecedented provision giving the new transportation security 
Under Secretary the authority to pass rules in an expedited 
fashion. In fact, if you look at legislation we passed, there 
is nothing in that entire legislation that is more significant 
than, again, this unprecedented authority that we gave to this 
new transportation security czar to put rules in place on an 
expedited basis.
    On July 11th of this year, my Aviation Subcommittee heard 
very disturbing testimony about the Department of 
Transportation and the Federal Aviation Administration's 
inability to pass rules in a timely manner. Let me give you 
some examples that we heard in that hearing.
    It takes the Department of Transportation an average of 3.8 
years to finalize a rule. We also had testimony that with FAA 
it takes a median time of 2\1/2\ years again to go through the 
process of enacting a rule. And let us face it, our country is 
now on a very high state of alert and we can't afford to wait 
another 3 years to get aviation security technology or 
screening standards in place.
    Witnesses at our hearings that we held on the problem of 
cutting through the red tape and enacting security rules on an 
expedited basis shared some stories with us about the time it 
takes for different rules. For example, the emergency exit rule 
took 10 years to process; the child safety restraint rule has 
taken over 3 years and still isn't finished; and, finally, the 
flight simulator rules took 13 years.
    Often an agency will place the blame for the time it takes 
to pass a rule on the time it takes to study the issue, analyze 
the cost/benefit data, publish the rule, gather public comments 
and incorporate those comments, and finally send the proposed 
rule to the Office of Management and Budget for its approval. 
That also often takes a good deal of time. However, the layers 
of review and analysis have become impediments that are in fact 
hindering our ability to achieve a secure aviation environment, 
particularly in a time of national crisis.
    Perhaps the rule that has received the very most attention 
recently has been the rule requiring screening companies to be 
``certified'' to ensure that they were meeting minimum 
standards of performance. Sadly, despite the Gore Commission 
recommendations--and the Gore Commission after TWA 800 and the 
Oklahoma City bombings acted and recommended action--and two 
congressional laws, one in 1996 and another in the year 2000, 
the FAA in fact dallied for 6 years on the screening rule which 
was still not in place, standards again for screeners were 
still not in place, a rule was not enacted by September 11th of 
this year.
    It is absolutely critical the administration get the right 
employees to be screeners and also that we set up a rational 
personnel system.
    Again, we have given unprecedented authority in the 
aviation security law for this new transportation czar to have 
almost unprecedented hiring/firing discipline authority over 
this new class of Federal workers. The major complaint that we 
often hear about Federal employees has been the impossibility 
of disciplining them.
    I chaired for 4 years the Civil Service Subcommittee in the 
House of Representatives. We found some interesting things in 
looking at the performance of Federal employees. Federal 
employees' complaints take, on average, 3.5 years to resolve. 
We must be able to enact performance measures--and if this is 
done by a rule and it does affect our security performance as 
it relates to our most important assets and that is human 
workers, but we must be able to enact performance measures in a 
meaningful manner, something that has been resisted in the 
past.
    Twice in the House I passed performance-based management 
systems for a Civil Service system and twice they were defeated 
or not taken up in the other body. In fact, I let the 
employees' groups help draft the provisions of those standards. 
We cannot have security tangled in the normal bureaucratic red 
tape and employee protections that have been chiseled in stone 
over many years.
    The new Under Secretary's unprecedented rulemaking 
authority should not only provide impetus on getting the right 
standards for screeners and these new Federal workers but 
should also give them the ability to put the most cutting-edge 
technologies in our airports immediately. That was part of the 
purpose of the way we crafted the legislation. Again, while 
technology exists which could have detected the plastic knives 
that we believe were used on September 11th or could detect 
other plastic weapons, it has not yet been deployed at our 
Nation's airports. To approve new technology can, in fact, take 
months. To complete acquisition or deploy the latest security 
technology can unfortunately take years.
    I know there are other areas which the new Under Secretary 
will find this, again, unprecedented rulemaking authority 
critical, but I am convinced that just by getting the right 
technology in place and the standards set for screeners--again 
high standards we have been seeking for many years--will have 
made great progress in making our transportation system much 
more secure and making the traveling public much more 
confident.
    I hope today that your subcommittee will examine carefully 
the torturous and time-consuming process required to pass 
simple rules related to security requirements. On September 
11th, above all else, the rulemaking process failed. It failed 
to allow new rules for technology approval and deployment. It 
failed to identify new security risks and adopt new standards 
by expedited rulemaking. We cannot as a matter of normal course 
of our conduct of business of government allow red tape and 
bureaucratic delays to hinder the rulemaking process, 
particularly when it comes to matters of national and aviation 
security.
    Finally, let me just say one thing, and it is not in this 
prepared statement. But the rules and even laws need to be 
realistic, and they need to be flexible. We did put provisions 
in this law that we just passed, unfortunately, that I believe 
are not realistic. The 60-day baggage screening provision which 
we put by law is not realistic, and I think today or shortly 
the administration will announce that they can't meet that 
provision that we, in fact, put in law. So our rules, even if 
they are expedited and put into place on an unprecedented, cut-
through-the-red-tape basis as we've provided for, have to be 
realistic; and, second, they need to be flexible, flexible 
enough that we don't tie the hands of those who are deploying 
the latest technology, those who are deploying the most highly 
skilled workforce, those that are involved in putting again 
these other necessary procedures in place that we give them 
flexibility.
    With those comments, I will be glad to answer any 
questions.
    Mr. Ose. Thank you, Mr. Mica. I appreciate your coming. I 
know that you worked hard on this bill.
    [The prepared statement of Hon. John L. Mica follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Ose. I have a couple of questions I would like to 
followup on. Before I do, I would like to recognize Congressman 
Shays. Thank you for joining us. I appreciate your coming.
    On the issue of the rulemaking process at DOT, there was a 
law that we passed in 2000 mandating the FAA to come forward 
with some new requirements, and you have correctly highlighted 
that inability to finalize these rules. In the context of what 
FAA was required to do, would that have had an effect on 
anything that occurred on September 11th?
    Mr. Mica. Well, I believe it probably would have. I think 
in my testimony I pointed out that you have to adopt rules or 
regulations that can identify, for example, in the aviation 
security area the most vulnerable risks and then be able to act 
on them. We are so bogged down in bureaucratic red tape. It 
takes us so long to get in place even standards for a screening 
company, that the larger picture is lost in this.
    One of the first things I did in February when I took over 
the Aviation Subcommittee was bring in the new head of security 
for FAA. We tried to talk about the big picture, but FAA spends 
most of its time mired in trying to pass these rules in this 
torturous process that we have described. And you lose sight of 
the big picture. You lose sight of where the risks may be.
    Could the events of September 11th been prevented? 
Possibly. We have equipment; we have technology that has been 
tested that will, in fact, identify plastic weapons, and we 
believe knives were used. There was no rule in place to ban box 
cutters. If someone had looked at the potential risk, possibly 
we could have had an expedited rule that would have banned box 
cutters or looked again at the larger picture, but we certainly 
could have had equipment in place on September 11th that would 
detect the type of weapons that were used. But, again, the 
torturous process of getting this deployed, and you get 
everybody and their brother involved in this process.
    Even a few weeks ago the ACLU was protesting the 
possibility of us getting some of this technology deployed that 
is very high in its definition and felt it was a personal 
intrusion into passengers or citizens.
    Mr. Ose. The gentleman from El Al who will testify later, 
having reviewed his remarks, indicated that the two questions 
that are typically asked of a traveler right now, did you pack 
your bag and were they----
    Mr. Mica. Totally, totally useless. I just had them asked 
of me as I got on a plane on the way here. I think you will 
have a representative from El Al, and they testified before our 
subcommittee. I don't know who came up with that particular 
provision, but it doesn't do the job. They need to ask more 
specific questions, probably on a limited basis and maybe on a 
profile basis.
    My God, little old ladies in a wheelchair I just saw that 
are being wanded are not taking down airplanes. We know 
specifically the types that are taking down airplanes. So we 
spend all this time being politically correct in trying to get 
even basic rules in place which have been impossible. It sounds 
a little bit like we are self-defeating.
    Mr. Ose. In that same testimony there were comments 
highlighting the fact that we match baggage to passengers, for 
instance, on planes in Europe coming to the United States or, 
as El Al does, matching bags to passengers on every flight. 
Does that----
    Mr. Mica. We have done most of that in the past restricted 
to international flights. But the events of September 11th 
indicate that we are in a new ball game. When someone is 
willing to take down a plane and be on the plane and direct a 
plane into a target, whether you match the bag or not is sort 
of a moot point. So we may be wasting a lot of money. We tried 
to shy away in our legislation from requiring matched baggage, 
but some people think that matched baggage is the answer to 
security problems. Personally, I don't think it is.
    Mr. Ose. One of the themes that I discern from your 
comments is that there is a tradeoff here between security and 
perhaps some loss of privacy. Does the law that we have just 
passed give the Secretary the ability to issue regulations that 
implement that tradeoff?
    Mr. Mica. Well, we are so accustomed to personal freedoms 
and trying to keep government out of our lives and out of our 
business or personal affairs and that is appropriate. When it 
comes to issues of national security, when you have someone 
that is willing, again, to die to take down a plane and 
passengers and thousands of people on the ground, we have to 
balance that with our security needs. So we have to protect 
privacy, and we tried to do that in the legislation that we 
passed.
    But again this new Under Secretary transportation czar, I 
could--the only one I can think of that has the power that 
individual has in any provisions of law would be the President 
of the United States.
    Now, the rulemaking ability of the new transportation czar 
is very narrow. It is confined to transportation security and 
aviation security. So he or she is not going to be out doing 
all these kinds of things that will invade people's privacy. I 
hope they will be respected. And we do have a check-off in the 
bill that we passed with a panel made up of our chief law 
enforcement agencies, one representative from the Attorney 
General's Office, the Department of the Treasury and others 
involved in law enforcement where a rule could be overridden by 
this panel. So we have some protections in there, but it is 
something that we always have to be on guard.
    Mr. Ose. I thank the gentleman.
    Gentleman from Massachusetts.
    Mr. Tierney. I have no questions. Thank you for your 
testimony.
    Mr. Ose. The gentleman from Connecticut.
    Mr. Shays. Thank you, Mr. Chairman, for holding this 
hearing and thank you, ranking member.
    Mr. Mica, I have been very impressed as have your other 
colleagues with the job you have done in airport security.
    I am puzzled by one provision. In the amendment that we put 
in the House on checking baggage for explosives, there we had 
it at the end of the year 2003 because we knew there would be a 
task of getting equipment and also having space for some of the 
equipment. And in the House bill I was pleased that it was 
moved up to the end of year 2002. I am unclear as to the 
provision that says deadline for all checked baggage to be 
screened by some method within 60 days. Explain that 
provision----
    Mr. Mica. Well, again, that provision was put in the 
legislation trying to get deployed. As you may know, in the 
past after each of these incidents and tragedies, we tried to 
cobble together legislative provisions or attack the problem. 
After TWA 800 and also Oklahoma City, all the emphasis was 
placed on explosive detection devices. We went out and bought 
$443 million worth of explosive detection devices. Some of that 
equipment was good and worked. Some of it didn't work. Some of 
it was deployed. Some of it was not deployed.
    In the past, the airlines had the responsibility before the 
President signed the law on November 19th of actually 
conducting the security procedures. They employed the 
personnel, the screeners, and the people who also did the work 
with these explosive detection devices.
    In fact, the security chief who came in and talked to me 
said that some of the airlines told him basically to go take a 
hike; they weren't going to use this equipment. It slowed 
things down. It cost money. They didn't want to do it. But, we 
have no way of enforcing that they used it.
    So the provision we put in the law was basically to deploy 
any of the equipment that is sitting idle, to put in place by 
any means possible. Drug-sniffing dogs could do probably as 
good a job as some of the equipment or other equipment or it 
may be some spot-checked baggage. So that was a directive to 
try to get these things in place.
    Can it be done in 60 days? I don't think so. I think----
    Mr. Shays. Can I just----
    Mr. Mica. The intent was good, but I don't think----
    Mr. Shays. See, I am not even understanding the intent. Let 
me just be clear. By the end of 2002----
    Mr. Mica. Well, 2002 is a different date----
    Mr. Shays. Let me ask my question so that I can structure 
it. You know so much about this bill, you want to tell me more 
than what I want to know. I want to know, by the end of 2002, 
they have to be totally complete, all baggage will be screened 
for explosives; is that correct?
    Mr. Mica. That is right.
    Mr. Shays. The 60 days--there is a news account that says 
Secretary Mineta said it is unlikely to meet the toughest 
deadline in the aviation security law President Bush just 
signed that all checked and carry-on baggage should be screened 
for explosives in 60 days. We don't require that all baggage be 
screened for explosives in 60 days, do we?
    Mr. Mica. We do not now, no. And we won't be able to do it 
in 60 days. We tried to explain this to some of our colleagues, 
too----
    Mr. Shays. But are you saying we have a 60-day requirement 
that all luggage has to----
    Mr. Mica. Yes. Well, the intent was to deploy everything we 
have, every means we have possible, technology that we have 
possible, dogs, some searches, maybe using the National Guard--
--
    Mr. Shays. I just want you to define the 60 days. 
Technically, the bill requires it----
    Mr. Mica. Technically, the bill requires it. Practically--
and that is part of what I spoke at the end of my testimony--we 
need to be realistic, and we need to be flexible. Whether it is 
a law or whether it is a rule----
    Mr. Shays. I don't mind being realistic. I want us to be 
realistic. I just want us to understand, and I want you to put 
it in clear terms. You are saying that, basically, the bill has 
a contradiction, that we say 60 days all explosives, and we say 
2 years all explosives?
    Mr. Mica. Well, again, it started out as an intent to try 
everything, deploy everything possible within 60 days and take 
every provision we could or take every action we could to 
ensure that as much baggage that was checked was screened. And 
then it turned into more of a mandate without flexibility. The 
true mandate in there is the one that you worked on that was 
originally 2003 and got moved to December 2002. That is in the 
bill. It is achievable. There are some problems even with that 
requirement, and you will hear that either from other witnesses 
or people who are involved in producing the technology.
    Mr. Shays. I will try to track down the language on the 60 
days before we have our next panel. I just want to be clear on 
this one point.
    Mr. Ose. Would the gentleman yield? I have the language.
    Mr. Shays. Pardon me?
    Mr. Ose. I have the language.
    Mr. Shays. OK. Do you want to read it to me?
    Mr. Ose. The language on the 60-day requirement is, a 
system must be in operation to screen all checked baggage at 
all airports in the United States as soon as practicable but 
not later than the 60th day following the date of enactment of 
the Aviation and Transportation Security Act.
    Mr. Shays. It doesn't say all explosives there. It just 
says check all baggage; correct?
    Mr. Ose. Correct. And there is an insert on page 49 that 
relates to explosive detection systems that says, explosive 
detection systems are deployed as soon as possible to ensure 
that all U.S. airports described in Section 44903(c) have 
sufficient explosive detection systems to screen all checked 
baggage no later than December 31, 2002, and that as soon as 
such systems are in place at an airport, all checked baggage at 
the airport is screened----
    Mr. Shays. So when I am hearing this language, it says, 
explosives by the end of 2002, a system that checks for all; 
and then in 60 days it says, all baggage will be checked. It 
doesn't specifically highlight the issue of explosives; 
correct?
    Mr. Mica. Well, again, it is a directive. Is it possible to 
put systems in place? Yes. Will the systems work to cover 100 
percent? No, not in 60 days. No way, Jose.
    Mr. Shays. I understand. It does not say explosives in 60 
days. That is all I am saying. I mean----
    Mr. Mica. The other problem we had in testifying before us, 
Mr. Shays and members of the panel, is that even by the time we 
deploy some of the technology that can detect explosive 
devices, the material that is used for explosives is changing. 
So if we gave them 2 years to deploy technology, the material 
that can be used as explosive may change and we may not have 
available in place the technology that can, in fact, detect 
these new explosives by changing the chemical composition or 
the makeup of the bomb device or explosive device.
    Mr. Shays. I will----
    Mr. Mica. That is the scary part about all of this.
    Mr. Shays. Well, the bottom line is, if we can't check for 
explosives in the belly of an aircraft, we can't say that 
airline travel is safe.
    Mr. Mica. But again----
    Mr. Shays. So it is important that we begin this task 
immediately. It will not be foolproof. But I did not read in 
the legislation that we are supposed to have in place within 60 
days a system to check for all explosive material, but I do 
read in the legislation that by the end of the year 2002 we 
must do it. Obviously the administration is going to work 
overtime to accomplish that task, and it may have to come back 
and say we are meeting it or not meeting it. But in the course 
of trying to reach that deadline, I make an assumption that 6 
months into this a good number of the bags will be screened for 
explosive devices, not all. I realize that we don't want to buy 
equipment that doesn't work, but I just want to reemphasize the 
60 days is not explosive material, as the story seems to imply, 
and I am kind of disappointed it has become an issue so quickly 
with Mineta saying we can't do it.
    Thank you, Mr. Chairman.
    Mr. Ose. Thank you, Mr. Shays.
    Do you have anything else?
    Mr. Mica, thank you for joining us.
    Mr. Mica. Thank you, Mr. Chairman. I wish you well, and we 
have staff here who are listening to the proceedings. We 
appreciate your conducting complete oversight again on this 
most important issue and encourage you to continue this 
process, and we will work with your subcommittee.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Ose. We will have the second panel join us now.
    The second panel comprises of Isaac Yeffet, Edward Merlis, 
and Todd Hauptli.
    Gentleman, in this subcommittee we swear all our witnesses. 
So if you would please rise.
    [Witnesses sworn.]
    Mr. Ose. Let the record show the witnesses all answered in 
the affirmative.
    Our first witness on the second panel is Isaac Yeffet. He 
is the former director of security for El Al Airline. Welcome.
    I want to caution the witnesses we have your written 
statements, and I know that everybody up here has read them. I 
have a heavy gavel at 5 minutes. The green light shows you are 
in the first 4 minutes, the yellow light shows you are in the 
last minute, and the red light means that trap-door underneath 
your chair opens and you are finished.
    So, for 5 minutes, Mr. Yeffet.

STATEMENTS OF ISAAC YEFFET, FORMER DIRECTOR OF SECURITY, El Al 
 AIRLINE; EDWARD A. MERLIS, SENIOR VICE PRESIDENT, LEGISLATIVE 
AND INTERNATIONAL AFFAIRS, AIR TRANSPORT ASSOCIATION OF AMERICA 
  INC.; AND TODD HAUPTLI, SENIOR VICE PRESIDENT, LEGISLATIVE 
      AFFAIRS, AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES

    Mr. Yeffet. Thank you, Mr. Chairman.
    Mr. Chairman, distinguished members of the subcommittee, I 
would like to thank you for giving me the opportunity to 
testify here about the aviation security of the United States 
of America and especially the changes that should be made to 
upgrade the level of security to a degree where any enemy who 
would try in the future to hijack or to blow up any aircraft of 
our country, of American air carriers, will fail. This is in 
the air and on the ground. If they will come to attack and to 
kill our passengers on the ground at any terminal in the world, 
and especially this country, we have to make sure that the 
enemy will get the answer from our guys in a second and they 
will pay with their life and not any more American people.
    For this, changes--there are a few conditions that in my 
belief we cannot reach this goal if we don't change the system 
and the concept of the FAA. We cannot continue so many years to 
rely only on technology, on machinery. This technology failed 
so many times, whether by the test that the FAA made, the 
enemies, or by mistakes when passengers were carrying guns and 
nothing stopped them at the security checkpoint. It is time to 
understand that machinery can help the qualified and well-
trained human being and not to replace them.
    Since September 11th we are witnesses to so many times that 
we fail in our security checkpoints when statement after 
statement was made that now we have a very high level of 
security and it is safe to fly with American air carriers when, 
in reality, nothing has been changed. I flew enough times since 
September 11th. I didn't see any changes, and I cannot tell the 
American people, yes, we are safe when we are not safe.
    This morning I took a flight from Newark airport to Reagan 
airport. The ticket agent behind the counter asked me two 
questions without looking at my eyes when I am answering the 
questions. I decided to talk to her to tell her that I am a 
security expert of an airline and why did you ask me these two 
silly questions when you didn't even pay attention to my 
answers? She said we never were trained what to do. We only 
were told to ask questions, and whatever you answer me, you 
answer me, sir.
    I said, don't you think that you are making a joke out of 
security? She looked at me and she said, you know, I was hired 
to do my job as a ticket agent, not as security. I'm not an 
expert in security.
    When we boarded aircraft, we heard an announcement that we 
have to remain seated on our seat from gate to gate and we 
cannot move during the flight. This is a result of failures 
when it comes to the aviation security of our country. 
Passengers should not suffer because of the lack of security. 
It's in our hands to change this system. The FAA charged 
millions of dollars every year to the airline for so many times 
the security people at the security checkpoint failed, but they 
never said stop here. Money's important. Life is more 
important, and, therefore, we want to know why so many times 
our system fails time after time and why we still keep this 
security company running the security at our airports.
    We know about security. A year ago, a huge company hired 
security people with criminal records. They were caught, and 
they made a settlement. Pay us a fine, $1.6 million, and don't 
do it again. Recently, they were caught again----
    Mr. Ose. Mr. Yeffet, we're going to come back to your 
testimony here because I think you have got such a wealth of 
knowledge----
    Mr. Yeffet. Can you allow me one more sentence, please?
    Mr. Ose. Yes.
    Mr. Yeffet. OK. My last sentence is, if we want to succeed 
having a high level of security, we must match the passenger 
with his luggage at the terminal before he is headed to the 
check-in. We must interview every passenger by qualified and 
well-trained security people. American people and permanent 
residents with green cards, they have to come with the 
government ID. All others that are noncitizens and are not 
permanent residents, they must come with passports.
    Every tourist should come with his passport, and the 
security people will check the passport to find out from what 
nationality the man is, what kind of visa he has. Is the visa 
that he has expired? Is this a fake or real passport that he is 
carrying? Based on this, we can build enough security questions 
to determine if this passenger is suspicious or bona fide.
    But by the fact that I've heard from Mr. Mica that he 
doesn't believe that to match the luggage to the passenger will 
help us, this will not help us if we will not interview the 
passengers, and we need to do it because through the passengers 
we come to the explosives and to the weapons inside the 
luggage. The luggage cannot talk, cannot tell us what is the 
contents inside the luggage. The passenger will give us the 
answer, and, if we are professionals and we know how to ask the 
right questions and we look at the eyes of the passenger, we 
can determine who is bona fide and who is not.
    Thank you very much.
    Mr. Ose. Thank you, Mr. Yeffet.
    [The prepared statement of Mr. Yeffet follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Ose. Mr. Merlis, 5 minutes.
    Mr. Merlis. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am Edward Merlis, senior vice president of the Air 
Transport Association of America.
    I appreciate the opportunity to appear before you today to 
discuss the transition regulations flowing from last week's 
enactment of the Aviation and Transportation Security Act. We 
are very pleased that Congress and the administration have 
reached consensus on this legislation that will place the 
Federal Government in control of aviation security, a position 
we've advocated since at least 1973.
    We've long felt that airlines do not belong in the security 
and law enforcement business. We move passengers and goods 
efficiently, and we should focus on that job. Government, on 
the other hand, not only has the authority but also the 
societal responsibility to provide security protection for our 
customers, our airlines, and the Nation they serve.
    Why have we felt that government has absolute preeminence 
in aviation security? Simply stated, aviation security and the 
fight against terrorism starts with the deployment of our 
Nation's intelligence gathering and analysis resources. Once 
our intelligence apparatus determines where the threat lies, we 
must utilize the proper tools to combat terrorism.
    Fundamentally, there are six tools that can be used to 
remedy the problems identified by our intelligence assets. The 
tools are diplomacy, economic sanctions, military intervention, 
covert action, law enforcement and countermeasures.
    The first five are exclusively governmental authorities, 
functions far beyond this industry or any industry's abilities. 
In these areas, we need the full-scale participation of the 
FBI, the CIA, and a host of other government agencies which 
have the wherewithal to fulfill those obligations.
    Unfortunately, for too long the airlines have been 
delegated by the government to take charge of aviation 
security. The airline industry does not have the expertise, 
much less the right, to engage in any of the essential 
activities necessary to combat terrorism. Airlines are not law 
enforcement or national defense agencies. As a result, too much 
of our aviation security effort was devoted to countermeasures, 
the last line of defense, an important line of defense, no 
less, but in concert only with the preceding five authorities 
once they have been deployed. In essence, we have been 
essentially ignoring the best lines of defense and relying only 
on the last.
    Thus, we review last week's enactment of the Aviation and 
Transportation Security Act as the fulfillment of what should 
have been done long ago, putting the government in full control 
of aviation security.
    Mr. Chairman, the hearing focuses on regulatory 
requirements emanating from the enactment of the Aviation and 
Transportation Security Act, and I've enumerated five different 
provisions in the act which we feel are particularly important 
as they apply to the airline industry.
    We're committed to working with the Transportation Security 
Administration in implementing these requirements so that the 
vision of the Congress can become a reality. In each case we 
have some measure of experience and offer that up for the TSA's 
consideration. But we recognize that, in the end, the TSA is 
the responsible party that must issue the regulations and 
implement a comprehensive aviation security program.
    One area I'd like to focus on briefly is the use of 
intelligence data. Much of the attention in the legislation is 
focused on looking for things among the billions of bags, 
packages and people we carry. We would hope that, in the 
interest of erecting a better aviation security barrier, much 
more is done to utilize existing resources of data to, in 
effect, look at the people involved and decide on that basis 
where to focus our screening efforts. That ``needle in the 
haystack'' can be found if the haystack is small enough but not 
so long as the haystack stretches beyond the horizon.
    We believe that better utilization of intelligence and law 
enforcement resources is the key to that goal as well as to the 
specific requirements of Section 138, the background check 
provision. What we envision is a dynamic process through which 
real time communication of our reservations systems and the 
government's data bases are put to best use. Airlines do not 
need to know who is on the government list, but the government 
surely needs to know that people on their hot lists are 
planning to travel. Through the efficient use of these data, 
security attention can be focused on where it can be of highest 
utility.
    Aviation security is the process of finding the one person 
out of hundreds of millions of passengers who intends to do 
harm. Government can best do that, and we are prepared to work 
with Government to ensure that it is accomplished.
    Thank you, Mr. Chairman.
    Mr. Ose. Thank you, Mr. Merlis.
    [The prepared statement of Mr. Merlis follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Ose. Our third witness is Todd Hauptli, who is the 
senior vice president for legislative affairs for the American 
Association of Airport Executives and the Airports Council 
International-North America.
    Welcome. You are recognized for 5 minutes.
    Mr. Hauptli. Mr. Chairman, thank you. It is good to be with 
you again, Mr. Chairman, Mr. Tierney, Mr. Shays.
    I have four points that I would like to try to make in my 
oral testimony. First is, talk about funding; the second, talk 
about the new Transportation Security Administration; the 
third, talk about screeners; and then, finally, the use of 
technology.
    On the issue of the funding, airports in the immediate 
aftermath of the events of September 11th were required by the 
FAA to deploy additional law enforcement personnel throughout 
the airports. That has been something that airports have done. 
It has been an extremely expensive requirement, an extremely 
expensive Federal mandate. The legislation that Congress 
enacted authorizes but does not appropriate funds for 
reimbursement for law enforcement officials. That is something 
that we will continue to work on.
    Mr. Chairman, I picked a very random airport to illustrate 
the point. I just grabbed one out of the hat, and it happened 
to be Sacramento.
    In that instance----
    Mr. Ose. Your testimony says Cedar Rapids.
    Mr. Hauptli. Well, we modified that for the oral 
presentation, Mr. Chairman.
    In Sacramento, we spent $3 million on additional law 
enforcement officers at the same time that the Sacramento 
airport will lose $5 million in revenues from lost concession 
revenues, parking revenues, and the like.
    Mr. Tierney, another semi-random example, at Boston Logan 
Airport they will spend an additional $10 million this year for 
law enforcement requirements and lose probably $75 million in 
revenues.
    Additionally, airports are going to need help with the 
capital requirements of terminal redesign, and we are going to 
have to look at how we queue passengers in screening lines, 
where we are going to put them, where we are going to put these 
explosive detection systems. They are heavy pieces of equipment 
that need reinforcement in the infrastructure. All of that is 
going to cause us to need additional resources.
    With the creation of the Transportation Security 
Administration, that will require government and industry to 
work cooperatively like they have never done before. The 
legislation is replete with requirements for the TSA to come up 
with new things in 60 days, 90 days, 120 days, 180 days, within 
2 years, within 1 year. We need to make sure that government 
and industry are working together.
    While we recognize the point Mr. Mica made earlier about 
the vast authority given the Under Secretary to promulgate 
rules without comment from outside groups, we hope that vast 
power is used sparingly. We believe it is necessary to work 
with the government in the promulgation of those rules.
    Third point, on screeners. The airport groups were 
relatively agnostic during this debate as to who should sign 
the paycheck, whether that be a Federal employee or not. But we 
felt very strongly, and do to this day, that there needs to be 
improved screening, improved training, improved proficiency for 
those screeners. We think that the provision in the law that 
allows airports to opt out of the Federal screeners after a 2-
year period, combined with the fact that class of Federal 
employees may be removed or fired, gives airports important 
leverage that we don't have now, say, with INS or with Customs 
or with Agriculture inspectors.
    That puts pressure on the TSA and on the screeners to make 
sure that they are doing a good job because they may lose their 
jobs if they don't, and we think that is an important provision 
that Congress put in.
    Finally, on the use of technology, the legislation calls 
for a pilot program on access control for up to 20 airports. We 
believe that is important so that we can experiment with 
different biometric models to determine what might be the best 
course to take in the future.
    Also, I think it is important to explore the possibility of 
using smart credentials, smart cards, the possibility of using 
passports. There are 65 million passports in the system today. 
That may jumpstart us in our ability to, as Mr. Merlis pointed 
out, take that haystack and make it smaller. If you have to 
find the needle in the haystack, the best way of doing that is 
making the haystack smaller.
    El Al uses a system, a trusted traveler system, where you 
are subjected to interviews and background checks initially if 
you are a frequent traveler; and, if you obtain a card, you are 
allowed to essentially bypass a portion of the screening 
process that takes the security screening time down from 
several hours in many instances down to as little as 15 to 20 
minutes.
    That is something that we should explore in the future, 
using technology to help some of the problems that we have 
experienced to date.
    With that, I will yield back and respond to questions.
    Mr. Ose. Thank you, Mr. Hauptli.
    [The prepared statement of Mr. Hauptli follows:]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Ose. I want to go through a series of questions here. I 
am going to ask each of you for your response. Brevity is 
appreciated.
    Mr. Yeffet, from your standpoint, from your experience, the 
interview process is integral to establishing security. Is that 
correct?
    Mr. Yeffet. That's correct.
    Mr. Ose. Mr. Merlis, does the ATA agree with that?
    Mr. Merlis. Absolutely. We want to look for people, not 
things.
    Mr. Ose. Mr. Hauptli.
    Mr. Hauptli. Interviews are very important, yes.
    Mr. Ose. Second question. Is there a tradeoff that is 
necessary to be made and accepted here in America between 
providing an adequate level of security and being able to fly? 
In other words, should the American people just come to expect 
that one of the consequences of providing security is that they 
may be asked a series of questions that some might consider 
intrusive? Is that a necessary tradeoff?
    Mr. Yeffet. Mr. Chairman, I interviewed, during the last 15 
years in this country, so many passengers, and we discussed 
together about their convenience, if we can ask them the 
question and they will give us the answer for their safety.
    The problem is how we approach the passenger, to explain to 
him why we have to ask the security questions. This is for your 
safety. You take the flight. We stay on the ground. And, 
therefore, please cooperate with us so that we will make sure 
that you will fly safe and secure.
    Not even one told me, I don't care, I don't want to answer 
any questions, I don't care about my life or my childrens' 
lives. Everybody said, please do it.
    No. 2, after September 11th, Mr. Chairman, the world has 
been changed, not only United States of America, and everyone 
will love to cooperate with the security instead of being 
tortured when he goes to a security checkpoint or where he 
takes a flight.
    I flew to Denver, and I told my colleagues I want to make 
sure now that I will make the alarm go off. I want to see what 
will happen. I did it.
    First step, I was told take off your shoes. I said, why do 
you want my shoes? We think we found what you have, what we are 
looking for. I said, take my shoes. Like me, other 15 
passengers were waiting without shoes for 10 minutes until they 
came to us and they gave us back the shoes. But they forgot 
from which part of my body the alarm went off. This was not 
important. The shoes have to be taken off.
    In Newark, announcement of the security people at 
checkpoint, they said, everyone that the alarm will go off, he 
has to take off his shoes. So help me God, people next to me 
with boots were afraid to death. They took off their shoes, and 
they placed it on the x-ray machine.
    This is not the security that we want. We cannot be 
paranoid. We cannot be in panic. We cannot overreact.
    After September 11th, the FAA eliminated the skycap. Two 
weeks later, they are back.
    This is not a system. This is not a concept. The American 
people will love to cooperate if they understand, and they are 
convinced that we do it for their safety.
    Mr. Ose. Does the ATA share that?
    Mr. Merlis. Absolutely. As I said, we keep doing what I 
call one step removed from harassment, instead of focusing on 
people who are potential hazards and dangers to us. We take 
knitting needles away from grandmothers when in the history of 
terrorism there has never been a female terrorist over a 
certain age--and not using those efforts in time and energy to 
focus on the potential terrorists and doing a strip search if 
necessary of that individual.
    Mr. Ose. Mr. Hauptli, how about the airport executives and 
the airport operators?
    Mr. Hauptli. On the continuum between absolute safety and 
absolute convenience, clearly our mark has moved since 
September 11th; and I think everyone would agree that 
additional questions are just fine at this point.
    Mr. Ose. So, if I could synthesize your comments, you are 
all in agreement that the regulations that might be adopted on 
an interim or emergency basis should provide for the 
opportunity to do interviews?
    Mr. Merlis. Yes, sir.
    Mr. Yeffet. Yes, sir. This is best opportunity for the 
security people to check passports of non-American citizens and 
permanent residents with green cards to see who is coming to 
take the flight with us. What kind of passport does he have? Is 
he legal in the country or is he illegal in the country? Is the 
passport real or fake? This is the best opportunity for the 
country, not only for airline security, to find out if there 
are any passengers that are illegal here, that are suspicious, 
that gave any suspicious sign from the ticket office and 
reservation department of the airlines.
    And, I am very sorry to say that I am not happy with the 
new law that was signed by the President, because I don't 
believe that we have to release the airlines from the 
responsibility of their security. They run the flight, every 
flight they are responsible for their operation from A to Z.
    Mr. Ose. OK. We are going to come back to that question.
    Mr. Hauptli.
    Mr. Hauptli. Thank you, Mr. Chairman. I just wanted to make 
one point.
    I agreed that, yes, interviews were important. I think it 
is also important to remember that in the system of ours with 
700 million passengers it is not likely that we are going to be 
able to interview every passenger every time and have that work 
with the current system that we have in terms of moving people 
through in an efficient fashion. So there needs to be some 
balance in how we approach that, which is why I earlier 
addressed the notion of, for frequent travelers, the idea of 
getting a smart card or some kind of traveler card where you 
would be subjected to rigorous interviews initially, go through 
background checks, and then be able to go through an expedited 
process for frequent travelers, and then for the occasional 
travelers go through a more involved process.
    We need to do something like that to use technology, 
because we move in 2 days the number of passengers that El Al 
moves in an entire year.
    Mr. Ose. We will come back to the level of tolerance that 
we might be willing to accept.
    Mr. Tierney for 5 minutes.
    Mr. Tierney. Thank you.
    Let me just start by saying that today's frequent traveler 
that is trusted may be tomorrow's compromised traveler. At some 
other point we can talk about how you get over that, what 
everybody talks about, making somebody special and putting them 
to the front of the line. I wonder what makes them special 
forever. Because things do change. People get compromised.
    But, Mr. Merlis, you indicated that the airline industry 
has said that they have always wanted security to be a 
government responsibility. But how can you give us an assurance 
that the industry is going to abandon what I think has been its 
historical reluctance, if not its outright opposition, to 
putting security really ahead of the convenience of the 
passenger or the customer? Because I really think that that has 
been a key to a lot of things whether it is matching the bags, 
or whether it is asking the right questions, or whether it is 
completing a baggage check--I think that the airlines have had 
for a long time historically been reluctant to really do that 
to the extent it ought to be done. And, now I see them all 
jumping over to have the government take over on that.
    But what assurance, if the government takes it over, that 
you are not just going to abandon any responsibility or any 
efforts on the part of the airline industry itself?
    Mr. Merlis. Let me say, first, that the questions are asked 
not because we wanted to. The government prescribed them. 
Second, if we pursued those questions, we might run severe risk 
of violating civil liberties. There have been certain airlines 
which have been sued repeatedly when they were suspicious of 
people and did not have proper cause because they are not law 
enforcement.
    Mr. Tierney. Are you aware of any provisions that the 
airlines would have implemented but for their fear that the 
government would have disallowed their implementation?
    Mr. Merlis. Well, going back 8, 10 years, carriers asked 
certain questions, treated people sometimes differently, and 
got sued, so they said we will just ask what we are asked to.
    Mr. Tierney. That was whether or not they won or lost the 
suit? Did they win or lose those suits?
    Mr. Merlis. I believe they settled. They were human rights 
or civil rights suits in New York City after the Gulf war. You 
just settle those. You don't go all the way through litigation. 
You don't go all the way to trial.
    Mr. Tierney. What stopped them from checking baggage? What 
stopped them from matching bags? What stopped them from doing 
all of the things that make common sense in light of September 
11th?
    Mr. Merlis. Well, in light of September 11th, we do not 
believe that 100 percent bag match is the right way. We think 
you should screen 100 percent of the bags. I think that is far 
more efficient.
    Mr. Tierney. Why wouldn't you also want to match the bags? 
You are assuming then that only suicidal people are the ones 
that we are concerned about?
    Mr. Merlis. No. I think that the way to do security is a 
layered approach. You use a lot of different things, not the 
same thing on every single person. If you have something that 
does the same thing on every single person, sooner or later 
your adversary is going to figure it out and figure out a way 
to pierce it. What you want to have is a variety of different 
kinds of tools that you use so that they never know what you 
are up to.
    Mr. Tierney. Why didn't the airlines do that before 
September 11th?
    Mr. Merlis. Airlines did do some of those things.
    Mr. Tierney. Well, they didn't do them all, and they didn't 
do it well enough, right?
    Mr. Merlis. Well, certainly there was nothing about any of 
those individuals who got through who violated any security 
requirement. Yet, at the same time, we know that many of those 
names were in government intelligence files and had never been 
provided to the airlines. That gets to Mr. Yeffet's question. 
If the government has the information and says, look for Joe, 
we will look for him. But we don't know who Joe is.
    And I think that is the first step in the process. Once you 
identify who the person is, then let's do everything possible 
with those people to ensure that they are not a threat.
    Maybe what you do with those people, after you search their 
bags and do a strip search, then you do a bag match on those 
people, or maybe you don't even let them fly on the flight that 
they have scheduled, just because they are suspect.
    But I think that the question you asked is, will we abandon 
anything? We will do what is required under the law, and what 
is required under the law is CAPPS and bag match. We are 
relieved of screening. We are not supposed to do screening 
subsequent to the 90-day provision. But we do whatever we are 
asked to do by the Government in this case.
    Mr. Tierney. Thank you.
    Mr. Hauptli, just to clarify one thing. You made mention of 
some of the additional personnel that have been placed at 
airports.
    Mr. Hauptli. Yes, sir.
    Mr. Tierney. I guess, as a one-time cost, I can see your 
point. But if these are things that should have been done as 
security measures for which the airports were responsible at 
any rate, am I correct in saying that you are not asking for 
the Federal Government to pick up the ongoing cost on a regular 
basis, you just want them to pick up the one-time cost for the 
fact that it wasn't done and all of a sudden it had to be done, 
it wasn't accounted for?
    Mr. Hauptli. That is right. We are looking for 
reimbursement for the security costs that airports had to 
assume as a result of FAA mandates, new security.
    Mr. Tierney. I am assuming, though, that you want it for 
that one time, that you, on your own right--whether you be an 
airport authority, or whether you be a State that runs the 
airport, or municipality or whatever--are going to change their 
level of security personnel anyway and then be responsible for 
that themselves?
    Mr. Hauptli. Yes, sir. In the future, we are also looking 
to try and figure out how to pay for some of these increased 
ongoing costs. That is a story for another day.
    Mr. Tierney. OK.
    Mr. Yeffet, let me just ask you. I would assume that you 
are not happy with the check-in people of the airlines not 
looking you in your eye when you are talking, and you have a 
rather low opinion of the new computer check-in system, where 
you get to punch a number that says the answer to those two 
questions, and maybe the money would be better spent just 
training those personnel as opposed to computerizing and 
putting those computer systems in. Do you see any future use at 
all for those computer check-in machines?
    Mr. Yeffet. I don't know why we have to use them at all.
    Let's assume that I am terrorist, and the computer will ask 
me the question when I buy the electronic ticket, and I will 
punch that I am terrorist. What would happen? It is a shame 
that we still, after so many times that we suffered and we lost 
thousands of lives of innocent people, we still are working 
with the concept that it is totally wrong and that we don't 
stop it.
    The FAA eliminated the skycap, but they kept the electronic 
ticket to be operated. If the skycaps were dangerous, why pull 
them back after 2 weeks? If they are not dangerous, why kick 
them out? They need to eat. They need to work. Keep them. Tell 
them, do not deal with security. Help the passenger bring the 
luggage to the check-in, to the security people, whoever, but 
don't eliminate them.
    The problem with the FAA, unfortunately, and I see it since 
1986, we act and then we think. I remember 1986, U.S. Air 
aircraft flew from L.A. to San Diego. At that time the FAA 
decided all air crew members and airline employees with 
uniforms can bypass the security checkpoint. Why? Because, they 
wanted this.
    A guy who used to work for U.S. Air stole money from the 
company and he was caught; he was fired. No one took from him 
the badge and the uniform. He asked for compensation, and he 
was ignored. He said in his letter to his boss, I am a drug 
user. I am an alcoholic. Help me with the money. He was 
ignored.
    One day he found out that his boss is taking the flight 
from L.A. to San Diego. He took a gun, he put on his uniform 
with the badge, he bought a ticket, he bypassed the security 
checkpoint. Close to San Diego he wrote a note to his boss, I 
left with nothing, you will have nothing, and opened fire. And, 
the aircraft was crashed and all of the passengers were killed.
    I was hired to do the investigation at the time. I asked 
the FAA, what happened? Why? It was a mistake. Now we change 
it.
    Before September 11th, a knife of 4 inches that you can 
kill a cow with it, it was legal to board the aircraft. And 
suddenly after September 11th, nail clippers are illegal. Where 
we are going to? Let's use our brain and not our emotion.
    If people cannot decide traveling when it comes to life of 
American people, they should not stay in their position. The 
American people trust us. Do not disappoint them. And, don't do 
mistake after mistake.
    Mr. Ose. Thank you, Mr. Tierney.
    Mr. Shays.
    Mr. Shays. I don't use this word very often. I don't like 
to think that I get frustrated. But I am listening to this 
testimony, and I am getting more frustrated than I ever thought 
that I would. Because, Mr. Yeffet, you bring your world to 
this. It is different than what I think my world is. And, each 
of you have your own different perspective.
    I don't see how the damn system works. I don't see how the 
system works where I would want to fly for a whole host of 
reasons. I want safety. I care about cost somewhat, and I don't 
want to wait in an airport for 3 hours to go on a 2-hour trip. 
I mean, I might as well walk.
    So I am thinking to myself, well, I am pretty sure of one 
thing. Maybe it is not a bad thing. I don't think that airline 
traffic is going to double in the next 10 years like we 
thought. So I don't think that we have to worry about 
congestion in the airports. Maybe that is a good thing. Maybe 
we need to think about using some other mode of transportation.
    But of these 19 terrorists, 17 were legal. They got into 
the country legally. They were legal. And, I want to know, 
would all of the 19 have been interviewed by you, Mr. Yeffet? 
Under your system, would all of them have been interviewed?
    Mr. Yeffet. Mr. Congressman----
    Mr. Shays. I don't want a long answer. I want to know if 
you would interview them. Are you advocating that we have a 
system where all of those 19 would have been interviewed?
    Mr. Yeffet. Yes. Sure.
    Mr. Shays. So every passenger is going to be interviewed?
    Mr. Yeffet. Every passenger. One passenger will be 
interviewed for 2 minutes. One passenger would be interviewed 
and be searched for more than 20 minutes. Yes, we would do it 
because I don't think that we can allow ourselves----
    Mr. Shays. I am not going to disagree, because I don't have 
the expertise. I just know, if that happens, I am not flying. 
Because I don't want to wait an hour and a half to 2 hours.
    I think you bring to this world, you know, mostly 
international travel, and so I can see it. But I don't see how 
a system works where when people are going from Boston to New 
York or New York to Washington they are going to fly. I guess 
we take the train.
    I mean, is that one of the outcomes of what you think you 
are proposing, that basically short flights disappear?
    Mr. Yeffet. Sir, today the American people are not flying 
not because they don't like the airlines----
    Mr. Shays. You are not answering the question, though. You 
have so much to share, but I just want you to answer the 
question.
    I am trying to visualize the world--and maybe you are 
right. I mean, I am frustrated, not because I disagree 
ultimately with your conclusion. I happen to believe that you 
and I agree on one thing. Tell the American people the truth, 
whatever the hell the truth is. Whatever it is. And if airline 
travel isn't safe, then let's just say it is not safe. If it is 
not going to be safe for a while, let's just say it is not 
going to be safe for a while.
    My view was, I don't want a terrorist or anyone in the 
cockpit, so I figure if you lock the darn cockpit up so no one 
can go in, that is a good thing. And, if we can make sure that 
there aren't bombs on planes and weapons on planes, that is a 
good thing.
    If a terrorist is in the body of the airplane and he gets 
in a fight with someone else and causes harm, that is not a 
good thing, but it is not going to bring the plane down. So, in 
my own mind, I was thinking, well, at least if we can get 
explosives and cockpits--respond to that.
    Mr. Yeffet. Mr. Congressman, if I understood you well, you 
are looking for your convenience. And, my answer to this is 
very simple. You said an hour and a half you are not ready to 
wait----
    Mr. Shays. Let me interrupt you. Then, you will get your 
chance.
    The reason why I take an airplane is convenience. If an 
airplane is no longer convenient, I am not taking it. That is 
all right. I mean, I will drive or I will take a train. When 
you say my thing is convenience, I just want to be realistic 
about why I take a plane in the first place. And, if what you 
do suggests I won't take a plane, then I accept that.
    I will let you answer. But do you understand it is not just 
convenience? It is understanding why I take a plane in the 
first place.
    Mr. Yeffet. First of all, you can drive a few hours. But if 
you have to go from Washington, DC, to L.A., how many times can 
you drive, sir?
    Mr. Shays. No, that I agree with.
    Mr. Yeffet. This is No. 1. No. 2, you are talking about 
your convenience, which I like to fly with maximum convenience. 
But the question, very simply today, convenience by knowing 
that I am risking my life or inconvenience by knowing that I am 
gaining my life? I think, Mr. Congressman, the answer is very 
clear. We cannot have the stick from both sides. We love to fly 
with no one to bother us. I don't like to be asked any 
questions. I don't like to be searched.
    I hate--but if I know that we have to pass through this 
system for our safety, I want to land alive and not dead, sir.
    Mr. Shays. OK. I understand that.
    You and I agree. None of us wants to be killed, and we 
don't want our passengers to be killed and we don't want our 
constituents to be killed. I understand that. I am just trying 
to understand the implications of what I think is an 
impractical proposal in one way. It is practical for the long 
flight, because frankly I will only fly by plane.
    But it seems to me, and you are an honest man; I am asking 
for an honest answer. Are the short flights basically going to 
be impractical because the short flights will take as long to 
check as the long flights but you are only going a short 
distance?
    And do you see under your proposal that the short flights 
kind of disappear?
    Mr. Yeffet. The answer is very simple. There is no 
compromise in security. But if, in the short flight from 
LaGuardia to Reagan Airport in Washington, DC, we want to make 
it faster, we just have to increase the qualified security 
people to do the interview. Instead of four or five people, 
let's take 10 or 15 people and then you will have it faster, 
only a question of money.
    If we are ready to spend the money, we will do it. The 
problem in this country is that we never accept that wee need 
to spend money on security. This is why the airlines signed a 
contract and hired the security company that offered the lowest 
bid; and to make the profit, we know whom they hired and what 
they paid them and how they trained them. This is why the FAA 
failed in their system. We have to change it.
    Mr. Shays. Thank you.
    Mr. Ose. Will the gentleman yield for a minute? I want to 
go to that one point. If I understand correctly, prior to 
September 11th and including the day of September 11th, the 
people at the screening stations in the terminals did exactly 
what the FAA guidelines laid out as their duty.
    Am I correct in that? Mr. Merlis.
    Mr. Merlis. Yes, at least insofar as we know, there is 
nothing that they did that violated any FAA rule.
    Mr. Ose. Is that your understanding also, Mr. Hauptli?
    Mr. Hauptli. Yes.
    Mr. Ose. Now, Mr. Yeffet, I understand what you are saying, 
that what they did was inadequate, clearly. But the fact of the 
matter is that they are not the ones who screwed up here, 
because they did exactly what they were assigned to do by 
Federal regulation, which is what Mr. Mica's point was earlier 
in terms of updating the regulations accordingly.
    I know what you are going to say. I want to be clear that 
those folks at those stations did what they were assigned to 
do. If we change the assignment, then their success rate will 
hopefully change also.
    Mr. Yeffet. It is a shame what kind of security system and 
level we had in this country.
    Mr. Ose. Thank you, Mr. Shays.
    Mr. Shays. My time is up. But let me, with your permission, 
just ask this followup.
    How many of the 19 terrorists would your interview have 
caught?
    Mr. Yeffet. I cannot answer the question because I didn't 
interview any of them, or my guys. But, for sure, I can tell 
you, sir, that the FBI, they had part of the names of these 19 
terrorists. And, if we know about these, my question: Why did 
these names not go to the airlines? If any of these names 
appeared during the screening process, these passengers should 
have been stopped immediately and the FBI notified in order to 
arrest them.
    And then we could avoid even the interviews.
    Mr. Shays. Thank you.
    Mr. Ose. The gentleman from Ohio.
    Mr. Kucinich. I want to thank the panel here. I would like 
to followup on some questions that my good friend, Mr. Shays, 
was asking of Mr. Yeffet.
    Take me through an interview of a prospective passenger on 
El Al. I present myself to you. I have my luggage. What do you 
do? Just let's go through it.
    Mr. Yeffet. I will try to do it in few sentences, because I 
can give a speech about it.
    Mr. Kucinich. Show me how it would work.
    Mr. Yeffet. OK. First of all, qualified people should 
interview you. I approach you, and I am telling you that I am 
the security man of your flight; and I have to ask you, sir, a 
few security questions for your safety.
    Mr. Kucinich. OK. Ask me the questions.
    Mr. Yeffet. Can I see, first of all, your passport?
    Mr. Kucinich. OK. Here is my passport.
    Mr. Yeffet. I check your passport. Let's assume now that 
you are an American passenger, so I don't have problems with or 
questions of your passport. But if you are from Iraq or today 
Afghanistan or Syria, then you already turn on the red light to 
me as a passenger.
    Mr. Kucinich. OK. Let's say we----
    Mr. Yeffet. Let's assume that you are not suspicious yet. 
All documents are OK. So my question will be the basic 
questions that I have to ask the passengers that are not 
suspicious, are not foreign; they don't have problems with 
them.
    The question is: To whom does this luggage belong?
    Mr. Kucinich. OK. It is mine.
    Mr. Yeffet. I don't want answers that will be Yes or No, 
like the FAA. I want words to you to use. Who packed your 
luggage, sir?
    Mr. Kucinich. I did.
    Mr. Yeffet. When did you pack it?
    Mr. Kucinich. A week ago.
    Mr. Yeffet. Where did you pack it?
    Mr. Kucinich. My home.
    Mr. Yeffet. How long was the luggage left at your home or 
any other place?
    Mr. Kucinich. It has been with me all of the time.
    Mr. Yeffet. Did you take the luggage with you to work?
    Mr. Kucinich. Well, it was in the trunk of my car.
    Mr. Yeffet. In your car? Who drove your car except you, 
sir?
    Mr. Kucinich. Just me.
    Mr. Yeffet. Just you.
    What is the contents of your luggage, sir?
    Mr. Kucinich. Just clothes and some toiletries.
    Mr. Yeffet. Can you describe----
    Mr. Kucinich. Copies of the Congressional Record.
    Mr. Ose. He is very dangerous. You watch him.
    Mr. Yeffet. Now, the point is that I have to look at your 
eyes close. And, once you answer me, when you lie to me, 
physiological changes will be seen in your face, believe me. 
And, whenever you lie to me, we can see that something is wrong 
with your answer. And, then we will stick on this point until 
we will make sure that I have no problem with the lie that you 
gave to me.
    Mr. Kucinich. So the screeners then are not simply asking 
questions; they are studying the people while the people are 
giving the answers?
    Mr. Yeffet. Sure.
    Mr. Kucinich. Have you ever done any research to determine 
anyone who is denied boarding, whether they are being denied 
boarding with justification based on evidence that was found 
subsequently, or do you just deny people boarding and they go 
away?
    Mr. Yeffet. No. What happens, some cases, were that people 
at the last minute had a call, what we call--they decided that 
they are not taking the flight. They were afraid. One that 
happens to us was at last minute sick, and ambulance had to 
take him. But just something--because I decided not to take the 
flight and disappeared, didn't happen.
    Mr. Kucinich. So your position then is that, if you subject 
passengers to greater scrutiny, there will be less of a chance 
that someone would slip in who might want to do harm?
    Mr. Yeffet. That's correct.
    Mr. Kucinich. Your view is, it is not simply a matter of 
electronics; it is people to people?
    Mr. Yeffet. That's correct.
    Mr. Kucinich. Thank you.
    Mr. Yeffet. Because I like to hear you and not the luggage.
    Mr. Kucinich. Did you let me on your plane?
    Mr. Yeffet. As a Congressman, with pleasure.
    Mr. Ose. Thank you. I have actually flown El Al and been 
subjected to the interview. The reason I was subjected to the 
interview of the lengthy type was that my connecting-leg plane 
was late.
    When my wife and I rushed up, a young woman, maybe 23 or 
24, came and interviewed us, and it was extensive and it was 
exactly the questions Mr. Yeffet just went through.
    Obviously we passed the interview, because we went on. But 
it was very interesting and it was very professional.
    Mr. Kucinich. Well, Mr. Chairman, I would guess that given 
that level of scrutiny, if someone was engaged in something 
that was irregular, they would probably be tripped up, you 
would imagine. I guess that is what it is about. You obviously 
are--your safety record has been very strong.
    Mr. Ose. I want to followup on Mr. Kucinich's items. We are 
going to have another round here.
    For El Al, you have government oversight of a private 
company and employees of the private company; if they are 
determined to be performing unsatisfactorily, they can be 
summarily dismissed. Prior to being employed, they receive 
extensive training. It is not 40 hours or 60 hours. How much is 
it?
    Mr. Yeffet. At least a week in the classroom. And, then on-
the-job training. Now, in the classroom, we have to train them 
about the terrorist organizations. Do you want me to repeat 
all?
    Mr. Ose. I can multitask. I heard your answer.
    Mr. Yeffet. No.
    Mr. Ose. Keep going.
    Mr. Yeffet. We have to train them about the terrorist 
organizations. We have to train them about countries that 
support terrorists. We have to train them about the acts of the 
terrorists against the airlines around the world, why they 
succeeded to blow up aircraft, why they succeeded to hijack, 
what was wrong with the security system and what should be done 
so that this won't happen to us.
    And, then to train them how to read a passport, how to 
approach the passenger, how to ask the right questions, how to 
phrase the question in a way that it should be so clear that I 
want the passenger to answer me immediately and not to let him 
think and to tell me that I didn't understand you two, three, 
four times. In the meantime, he can think of what answer to 
give.
    I prefer to see an interviewer that is asking the 
questions, and, if he can bring the passenger to answer me 
spontaneously so I can determine if he is lying.
    Mr. Ose. Now, the personnel that I interviewed with, both 
on the leg to Israel and the way back, they were young, 25, 30 
at the most. Is there some career profile for folks who do this 
kind of interviewing? How do you collect people? How long do 
you keep them? What characteristics do you look for on the 
interviewing site?
    Mr. Yeffet. Normally we hire people to be security after 
the service in the Israeli army; and they have experience, and 
they know how vulnerable is the country and the airlines when 
it comes to security.
    Now, we train them, as I mentioned, and we test them. When 
I was the head of security for El Al, I used to do thousands of 
tests every year. When I was a diplomat in this country, I used 
to take the people from the FBI from Washington, to and from 
New York, Friday night at 10 at night, running an exercise, 
when one of my group used to be the terrorists that attack the 
passengers and our group was the defender of the airlines. And, 
we did so many exercises, in order not to wait for something 
real to happen, any test that we used to do, so our people for 
them, real or test, should be the same, Mr. Chairman.
    Mr. Ose. Who paid for the training process that includes 
these tests?
    Mr. Yeffet. Part is the Government of Israel and part the 
airline.
    Mr. Ose. So there is a passenger charge in part and a 
contribution from the Federal Government?
    Mr. Yeffet. No. We did not charge the passengers for this, 
but they charge the passengers for airport fee; this included, 
I think, the security expense.
    Mr. Ose. OK. Now, you indicate you have the interviewer. 
The reason I am exploring this is, I wanted to make sure that 
the people who can't join us today get this stuff into the 
record so that they can at least think about it.
    You have the interviewer at the terminal. You have a second 
layer that checks everything at the gate, too, because I 
remember, and when I got there, panting, the guy took me 
through another series of questions. That person is part of the 
security process.
    You also indicate that you have people that are trained on 
the plane for situations. That is part of the security process. 
These are all interwoven, if you will, as part of an overall 
package.
    Mr. Yeffet. The security are trained to do everything from 
A to Z; if it is to interview passengers, to be in the baggage 
room, to search the aircraft, to search unattended luggage, or 
to open even an ashtray to look to see if somebody replaced 
anything or planted anything there, except the armed people 
that we have.
    This is when I was testifying in the beginning today, I 
emphasized that we have to change the system, even on the 
ground, especially out of this country.
    When the enemy will find out that you cannot hurt us in the 
air, he will try to kill us on ground. In security, in our 
aviation security, we have to make sure that we cover every 
single point from A to Z, including the catering, the duty 
free, the cargo, and so on, and so on.
    Now, we cannot allow ourselves to keep the one weak hole in 
the system because we are dealing with a sophisticated enemy. 
They will definitely do enough studying to find out our true 
weak points, so they can have the access to hurt us.
    Mr. Ose. You have testified in favor of matching baggage to 
passengers. So there is some element to the passenger standing 
there with the bag. That is part and parcel of the security 
process. Do you think that the DOT should mandate that or put 
it in its rules for domestic flights here in the United States?
    Mr. Yeffet. Yes, sir.
    Mr. Merlis. No, absolutely not. We think it should be part 
of the overall screening process, but not 100 percent.
    Mr. Ose. So you would use some means of sorting that--put a 
portion of the people through a baggage check process?
    Mr. Merlis. No. All passengers' checked baggage would be 
screened, but only some of the checked bags would be subject to 
the 100 percent bag match process.
    Mr. Ose. Is that what is done on international flights?
    Mr. Merlis. In the international flights right now it is 
100 percent bag match. But we are dealing with two totally 
different situations. Internationally we have 1,000 and 
domestically we have 20,000 flights a day.
    Second, we have seen from the nature of the terrorist 
threat of September 11th that 100 percent baggage match is not 
good enough, so our view is that if you have baggage match as 
part of an overall screening process; a 100 percent screening 
process, you will be more likely to pick up the terrorist, 
suicidal terrorist, which you would not pick up on a 100 
percent baggage match.
    Mr. Ose. As it relates to September 11th, you are saying 
that the baggage match is irrelevant?
    Mr. Merlis. Absolutely.
    Mr. Hauptli. Basically go with what Mr. Merlis indicated, 
and again, until we can get technology to the point where we 
can use it to try to slim down some of these times, 100 percent 
baggage match in all circumstances would grind the system 
pretty well down to a halt.
    Mr. Ose. So what level of tolerance, coming back to this 
tolerance question, what level of tolerance should Congress be 
willing to accept? Mr. Yeffet says zero.
    If I am on a plane, I have got to tell you, I am for zero. 
If my family is on a plane, I am for zero.
    Mr. Hauptli. Again, if you want absolutely total safety in 
the system, you just never take off.
    I mean--so that is one end of the continuum absolute 
safety, and the other end of the continuum is absolute 
convenience. Up until September 11th, we as a government, as an 
industry, as a people, demanded and selected one point on that 
continuum; it was closer to absolute convenience than it should 
have been. We have now shifted to a point that is more toward 
absolute security, recognizing that, as a practical matter, you 
are never going to get all of the way to absolute security. 
Where is the right spot, where that is the sweet spot, if you 
will.
    That is a good question. It is a question that I think is 
going to be trial and error to see what the American people 
will tolerate in terms of increased security measures, while 
still allowing for freedom of movement through the country.
    Mr. Ose. I won't ask you to define what trial and error 
means.
    Mr. Merlis. All I would say, sir, is that there is a role 
for 100 percent--for baggage match in this process, if you 
focus on the people and you identify and sort out those people 
who need additional scrutiny from those who, because they have 
got clean NCIC and Customs records, they have Federal security 
clearances, they meet a host of criteria.
    Let the government pick the criteria. You may have 200 
million people out of our citizens who fit it. Maybe for those 
200 million, you don't need a bag match. For the other 65 
million people, and I am talking only about citizens, but for 
the other 65 million people who can't meet that test you do 
need bag match for; and one of the reasons, sir, is, as this 
statute is written, if you had a 100 percent bag match, and 
there was a misconnect, we know from our test in 1997 that 1 
out of every 70 people at a hub does not meet his connection.
    That means, first of all, you have got to pull that one bag 
off every single plane because every plane has more than 70 
passengers. How do you ever get the bag to the owner? You can't 
put it on a plane unless the passenger is on it, so we are 
talking about passenger inconvenience without necessarily the 
concomitant increase in security, as proven September 11th. If 
the guy is suspicious, bag match for the guy; if he is not 
suspicious, then screen his bag.
    Mr. Ose. Mr. Yeffet, I know that you have a 4 o'clock 
commitment. And I don't want you to miss your flight. One 
series of questions, if I might.
    In terms of the folks we hire either for interviews or for 
the screening or what have you, what level of tolerance should 
we accept for their performance? Mr. Yeffet.
    Mr. Yeffet. Zero tolerance. There is a difference between 
performance of a security man or woman that passed all of the 
training, and they have to run the security, and we rely on 
them. If they cannot pass the test, and they fail for us, the 
terrorists succeed; and, therefore, we cannot replace the life 
of anyone and the one who failed has to go home.
    During the training, if the students, if I may call them, 
that fail in the test, they are still in the responsibility of 
the trainers and the security managers.
    Maybe something goes wrong with the trainers, and 
therefore, we will retrain them to make sure that we did the 
maximum. If, after we did the maximum, the one here or one 
there will fail, he has to leave and to go home.
    Mr. Ose. Mr. Merlis, do you share that opinion?
    Mr. Merlis. Well, I think when you do a layered approach, 
you don't have to have 100 percent. Your layers add up to 100 
percent. So, if you have several requirements in this process--
if one person doesn't ask all of the questions correctly, but 
the next one finds whatever the bad stuff is, then you have 
accomplished your goal of preventing someone from piercing the 
security system.
    I think that 100 percent is not for every single person. 
Every single time is not accomplishable; it is not going to 
happen. So what we have to do is recognize we need a system 
with appropriate redundancies. So, if at 98 or 99 percent, you 
know you get that 1 or 2 in 100 failure, then there is a backup 
there who--just look at the math of it. The likelihood is, the 
second one isn't going to have a failure on that same person. 
If you had a third layer the likelihood is you aren't going to 
have a failure on that same person.
    I just don't think it is doable to have 100 percent for 
every single person every single time that they ask a question.
    Mr. Ose. I understand the redundancies question. If you 
have someone who is not performing his particular layer of 
inspection, do you keep him or do you replace him?
    Mr. Merlis. I think you replace them, but if a person was 
diligent, I don't think you fire him. You retrain him and make 
sure that he does it the right way. I mean, a person may not 
say the 10 words he is supposed to say. He might cut his 
sentence off. Now he has violated the rule. The requirement 
cannot be so rigid that discretion isn't used, as long as the 
totality of the system is 100 percent, which I think is the 
goal.
    Mr. Ose. Mr. Yeffet, in your experience, how have you dealt 
with that? If you have someone out on the line who does not 
perform satisfactorily under your management, how do you handle 
that?
    Mr. Yeffet. I fired the director of security in Paris 
when--he had family with children in school. When I found out 
that he didn't perform properly in the level that we expect him 
to do it, I had to fly over there to make sure that my deputy 
was right with his evaluation. Once I was convinced, I fired 
him.
    Now, what my colleague says here, that if the man was not 
trained well and made a mistake, so we have to retrain him. If 
he was not trained well, I would fire the trainer and the 
director of security that assigned him to do the job.
    But, if he were trained well and passed all of the tests, 
and I am talking about testing, not this question or other 
question, if he failed in tests, he cannot remain in the 
security company.
    Mr. Merlis. If I can respond, I would agree. The fact is, I 
was referring to the practice that is now going on that if 
someone misses an object even now, is the person fired? Mr. 
Yeffet said questions should not be asked in any given way, 
which means yes/no, only if a person asks 10 questions. Under 
the theory that we have in place today, if a person asks 10 
questions and inadvertently asks one which is a yes/no, has he 
failed and therefore is fired?
    I am against that. I think that it is the overall 
performance, for which if there is a failure then you fire him.
    Mr. Ose. The question of redundancy--Todd, we are going to 
get to you. The question of redundancy is a very good question, 
because we had an incident in Atlanta or Chicago where somebody 
got through the first level, and they got caught at the random 
screen at the gate.
    The system worked. The redundancy worked. My question is, 
if that first screen keeps missing, I mean, there is a problem 
with either the training or the person, and it has to be fixed. 
I don't know how in an issue of this importance, you can even 
look past that for a moment. I mean, I have to tell Mr. 
Yeffet's perspective on the level of tolerance is a lot closer 
to mine than the two of yours.
    Mr. Merlis. Just if I may, sir. I am not disagreeing. I 
agree with him. I was talking about the context that we have 
today wherein if somebody asked a question wrong, he would be 
fired. I think that is excessive. One question asked wrong, not 
that the person breached security, but he asked the question 
wrong.
    If his overall performance is deficient, he should be 
fired. If his performance means he let things through that 
shouldn't be let through, that should be grounds for doing it. 
But 100 percent, as it has been explained to me, means you do 
nothing, you do not deviate one iota ever. And I think that is 
a standard which is not going to be achievable. I mean it may 
be achievable for some people most of the time, but under that 
standard, you say a question wrong once in an 8-hour day, you 
are fired, that is wrong.
    Mr. Ose. Mr. Hauptli, from the operator's and the airport's 
standpoint?
    Mr. Hauptli. I think I forgot the question.
    Mr. Ose. The question had to do with to what degree do you 
accept less than satisfactory performance by your security 
personnel?
    Mr. Hauptli. The answer to that is, you don't. The 
legislation provides the Under Secretary of the Transportation 
Security Administration the ability to fire personnel that are 
not performing.
    Mr. Ose. I want to thank the panel. Mr. Yeffet, Mr. Merlis, 
Mr. Hauptli, your testimony today was compelling and highly 
informative. I am sure the next panel is going to be just as 
good. I have to tell you that as a Member of Congress, I have a 
zero level of tolerance. There is no way to recover from a 
fatal mistake here. I mean, I am hoping that the rules and 
regulations incorporate that.
    I can't quantify for you today what that means in terms of 
operations, and I am willing to take that risk. But, I would 
rather spend a couple of hours in an airport than what may well 
be the alternative.
    Mr. Hauptli. Just make sure that you buy things when you 
are in the airport, sir.
    Mr. Ose. I do regularly. I feel like I live in an airport. 
So thank you all for coming.
    Mr. Yeffet. Thank you very much.
    Mr. Ose. We are back from the recess. I will introduce our 
next panel.
    John O'Brien is the director of engineering and air safety 
for the Airline Pilots Association, International. We have 
Patricia Friend, who is the president of the Association of 
Flight Attendants. We have Mark Roth, who is the general 
counsel for the American Federation of Government Employees, 
and joining us shortly will be Paul Hudson, who is the 
executive director for the Aviation Consumer Action Project.
    Lady and gentlemen, I apologize for the length of time it 
has taken to get to this panel. That was, I thought, a 
compelling previous panel. I appreciate your patience. We have 
read your testimony. To the extent you can summarize, it would 
be appreciated.
    Mr. O'Brien for 5 minutes.

  STATEMENTS OF JOHN O'BRIEN, DIRECTOR OF ENGINEERING AND AIR 
 SAFETY, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; PATRICIA 
FRIEND, PRESIDENT, ASSOCIATION OF FLIGHT ATTENDANTS; MARK ROTH, 
 GENERAL COUNSEL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES; 
 AND PAUL HUDSON, EXECUTIVE DIRECTOR, AVIATION CONSUMER ACTION 
                            PROJECT

    Mr. O'Brien. Good afternoon, Mr. Chairman. I am John 
O'Brien, director of the Engineering and Air Safety Department 
for the Air Line Pilots Association. ALPA represents 67,000 
airline pilots who fly for 47 U.S. and Canadian airlines. We 
sincerely appreciate this opportunity to appear before the 
subcommittee to present our views on the important subject of 
aviation security regulation.
    ALPA has been in the forefront of efforts to create a more 
secure airline system. We are pleased, therefore, that the 
President last week signed into law the Aviation and 
Transportation Security Act.
    Mr. Ose. Mr. O'Brien, would you halt for a moment? I made a 
rookie mistake here. I need to have you all rise and swear you 
in.
    [Witnesses sworn.]
    Mr. Ose. Let the record show that the witnesses all 
answered in the affirmative and now we're going to go back to 
Mr. O'Brien.
    Mr. O'Brien. This hearing is quite timely because it 
concerns the implication of that law's numerous provisions and 
other initiatives. Congress' oversight role will be a critical, 
important part of any effort to prevent a repeat of some of the 
regulatory adventures that have occurred in the past. An 
example of such an adventure was the 10-year odyssey that FAA 
embarked upon to revise some provisions of security, FAR 107 
and 108, which were finally published this summer. We are 
hopeful that the new DOT Under Secretary's office will produce 
regulatory proposals and final rules in a more expeditious 
fashion.
    I'd like to emphasize that ALPA strongly promotes one level 
of security in the implementation of Federal security 
regulations. A terrorist guided missile in the form of a fully 
loaded airliner can take off from any commercial airport in the 
country and wreak havoc on unsuspecting innocents virtually 
anywhere below. The type of operation is also not a 
discriminator. There is no difference between a fully loaded 
cargo airplane and a fully loaded passenger airplane in terms 
of their use as guided missiles. Each of our recommendations is 
made in this context.
    ALPA has been promoting positive electronic verification of 
identity and electronic airport access control systems since 
1987. This is primarily as a result of the PSA accident that 
was mentioned earlier this afternoon. This accident was caused 
by an armed, disgruntled former airline employee and in effect 
was a mass murderer of 43 passengers and crew members and bears 
striking similarities to the hijackings of September 11th. This 
accident was attributable in large measure to the identity 
verification inadequacies that are yet to be addressed 14 years 
later. On the heels of that tragedy FAA revised airport 
security regulations to require that many airports install 
computerized access control systems. In the mid-'90's Congress 
provided 2 million for testing and implementing a transient 
employee security system that came to be known as the Universal 
Access System [UAS]. For all practical purposes, those funds 
were wasted.
    Even though ALPA completed successful UAS tests and 
standards were finalized for the system in 1998, there has been 
no implementation of the system. This failure came as a result 
of the FAA policy to leave UAS implementation to the sole 
discretion of the airlines. In the meantime, technology has 
moved on and the standards devised for UAS are no longer 
current. FAA has now finished a report on smart card systems 
for identifying armed law enforcement officers who are using or 
supporting our air transportation system. The private sector is 
developing proposals based on that and other advanced 
technologies such as biometric readers. The new Aviation 
Security Act provides for pilot programs in no fewer than 20 
airports to test and evaluate new and emerging technology for 
access control and other security requirements.
    While we wholeheartedly endorse testing new technologies, 
there also must be requirements to install them or testing is 
for naught. Therefore, we recommend the standards be 
immediately developed and made regulatory for the creation of a 
UAS that could use the best technologies available. The tests 
at the 20-plus airports should be used to validate technologies 
designed to meet the new standard, and in addition to providing 
positive access control for employees. The UAS must also be 
used to facilitate employee screening at checkpoints in order 
to reduce delays for passengers, verify the identity of jump 
seat riders and it could be used as a media for digital pilot 
licensing or certificate information.
    ALPA is also very supportive of efforts to perform 
voluntary checks on trusted passengers so that the amount of 
time spent at screening checkpoints is reduced. The UAS system 
could be used for that purpose and perhaps others that have not 
yet been considered.
    I'd like to turn your attention to a new Security Act 
provision to require security screening of all checked bags and 
the screening of cargo and mail in cargo aircraft. We agree 
with these provisions as far as they go because the potential 
for carrying a bomb laden bag onto an aircraft is very real and 
needs to be addressed as soon as possible. However, the new 
security law provides the DOT Under Secretary with a 1-year 
study period for reporting on the screening requirements 
applicable to aircraft with 60 or fewer passenger seats used in 
scheduled passenger service.
    We thought we had rid ourselves of dual regulatory 
standards with a successful one level of safety campaign but, 
apparently, that isn't so. We recommend that the airline 
security regulations be amended to require one level of 
security through security screening of all passengers and their 
baggage. Such action would be consistent with the precedents 
established by DOT and FAA under the 1995 one level of safety 
regulatory initiatives.
    There are a number of issues surrounding the strengthening 
of cockpits that are deserving of congressional attention. 
We're encouraged by the rapid move toward full voluntary 
passenger fleet compliance with special Federal regulations on 
cockpit door hardening that the FAA recently issued. However, 
some important debates are now underway on how best to make 
longer term aircraft flight deck security improvements. 
Everyone understands the basic concept of installing stronger 
flight deck doors to keep terrorists out of the cockpit. What 
may not be as readily apparent is the need for strengthening of 
cockpit floor as well as the bulkhead to which the door is 
attached. A strong door offers little protection if it's 
connected to a weak frame.
    Another question is whether cockpit door hardening and 
other related security enhancements should be made for cargo 
aircraft. We believe that they should because cargo aircraft 
have been the target of security breaches in the past and they 
could be used as terrorist guided missiles like a passenger-
carrying aircraft.
    FAA has recently enacted special regulations to encourage 
cockpit door strengthening, including allocation of Federal 
funds for doors for passenger aircraft; however, they did not 
specify cargo aircraft; so these aircraft are not being 
retrofitted in spite of the fact that DOT's Rapid Response Team 
for Aircraft Security recommended retrofits for the entire U.S. 
fleet.
    Mr. Ose. Mr. O'Brien, are you about finished there?
    Mr. O'Brien. I'm just about. I'll skip the last one here 
and just say thank you, and I will be pleased to answer any 
questions.
    [The prepared statement of Mr. O'Brien follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




    Mr. Ose. That is an excellent wrap up. Thank you, Mr. 
O'Brien.
    Ms. Friend.
    Ms. Friend. Thank you, and good afternoon, Mr. Chairman and 
members of the subcommittee. My name is Patricia Friend, and 
I'm the international president of the Association of Flight 
Attendants. We very much appreciate the opportunity to testify 
today.
    The American people have made it clear that they expect the 
government to correct fundamental problems in our air security 
system before they will resume normal travel patterns. Our 
Nation's flight attendants have not had the luxury of picking 
and choosing when we fly. We went right back to work after 
September 11th. Flight attendants continue to comfort anxious 
passengers while we cope with not only our own concerns and 
fears about our personal safety, but our grief for fellow 
flight attendants who lost their lives.
    I speak to you today from the perspective of the more than 
50,000 flight attendants at 26 U.S. airlines represented by the 
Association of Flight Attendants. The Aviation and 
Transportation Security Act of 2001, signed into law last week 
by President Bush, makes crucial improvements in the security 
of our aviation system, but there's still more to do. 
Federalizing airport security screening and creating a new 
Transportation Security Agency separate from the Federal 
Aviation Administration was a vital improvement in securing our 
skies. We support Secretary Mineta's goal of a new security 
agency that focuses solely on security, and we support the 
hiring of a qualified candidate from law enforcement or the 
military to head that agency.
    Just as important, we welcome the increased presence of air 
marshals, strengthened cockpit doors and the new training that 
we will receive. We welcome the screening of everything and 
everyone with access to secure areas of airports and enhanced 
identification of airport personnel through the use of new 
technologies. Yet, there are gaps still in our aviation 
security system and we are counting on you to provide the 
flight attendants with the tools that we need to protect our 
passengers and ourselves in the event of a future attack.
    As we have tragically seen, once a security threat in the 
cabin compromises the flight deck, the aircraft and lives on 
the ground are in jeopardy. Securing cockpit doors and 
providing pilots with a defensive device are key to ensuring 
that terrorists will not in the future be able to use our 
planes as missiles. But the new law fails to require flight 
attendant access to non-lethal devices in the cabin.
    The flight attendants have become the first and last line 
of defense for passengers. We are responsible for ensuring that 
a security threat doesn't reach the cockpit. To effectively 
meet that responsibility, we must be given the means to defend 
ourselves, our passengers, and the flight deck from intruders. 
You can accomplish this by ensuring that flight attendants will 
be trained and qualified in the use of an appropriate non-
lethal weapon stored in a sealed or locked compartment 
somewhere on the aircraft.
    At some level, government licenses automobile drivers, 
teachers, contractors, plumbers, nurses, doctors, a variety of 
other citizens and professionals. These licenses are issued in 
order to control and ascertain a level of proficiency.
    Flight attendants are trained in the emergency, safety, and 
security operations on board an aircraft, but currently the 
Federal Aviation Administration does not license flight 
attendants. In virtually every in-flight situation, emergency 
or otherwise, flight attendants are the only trained 
professionals present to provide first aid to passengers, fight 
in-flight cabin fires, provide guidance during a decompression 
or turbulence, handle unruly passengers who might endanger the 
safety of other passengers on the flight, and even help 
passengers out of an airplane after a crash.
    Now with the passage of a new law and the additional 
security training that will be provided to flight attendants, 
it's time for the public and other aviation workers to be given 
the assurance that flight attendants have been trained and are 
qualified to perform their duties. The best way to accomplish 
this is by the FAA's licensing flight attendants.
    The size and amount of carry-on baggage directly affects 
the job of security screeners and the potential for a weapon to 
be brought on board the aircraft. Currently an FAA directive 
exists that limits carry-on baggage to one bag plus one 
personal item per passenger. The new security law includes a 
sense of Congress that the FAA should maintain its current 
restrictions on carry-on bags. The government now needs to go a 
step further and codify this limitation in its security 
regulations in order to avoid the possibility that the current 
FAA security directive could be changed or eliminated at any 
time.
    The new security law states that, where baggage screening 
machines are not available, alternatives to screening checked 
baggage, such as a bag match program, are required, but 
regrettably it does not require 100 percent baggage/passenger 
match. Nothing short of 100 percent bag match and 100 percent 
evaluation of all passengers will close this loophole in the 
aviation security system.
    The last issue I'll bring to your attention is currently 
one of the most controversial for flight attendants at many of 
our U.S. carriers. Recent security directives have required 
that each aircraft cabin be thoroughly searched before the 
first flight of the day. Secretary Mineta's Rapid Response Team 
on Aircraft Security reported that current procedures allow 
inadequately trained personnel to conduct these searches for 
dangerous items hidden on board the aircraft. The DOT team also 
reported that insufficient time is given to assigned personnel 
in order to conduct a thorough search. We agree with the Rapid 
Response Team, which made specific recommendations that 
security searches be assigned to trained experts and not to 
cockpit or cabin crew members.
    Currently, cabin security searches are being done by 
airline staff, including flight attendants, at 14 AFA-
represented carriers. Airline management further compromises 
security by forcing flight attendants to complete a review of 
their safety equipment and a thorough security search of the 
aircraft in as little as 5 minutes, all in order to ensure an 
on-time departure. While these policies are within the current 
FAA directive, they guarantee that inadequate searches are 
performed, making them in effect a sham. Security searches, as 
I'm sure you will agree, are important tasks that belong in the 
hands of trained security personnel who are part of the new 
Transportation Security Administration at the Department of 
Transportation.
    Overall we are pleased with the new security law and we 
believe that many security loopholes will now be closed once 
all the provisions of the new law are put into effect. It is 
essential, however, to move swiftly on the additional security 
enhancements to correct continuing flaws in our aviation 
security system. Hundreds of millions of U.S. passengers and 
crew fly each year. We deserve a truly safe and a secure 
environment.
    Thank you for allowing me to testify, and I welcome any 
questions.
    [The prepared statement of Ms. Friend follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Ose. Thank you, Ms. Friend.
    Mr. Roth, from the American Federation of Government 
Employees, take 5 minutes.
    Mr. Roth. On behalf of the 600,000 government workers 
represented by AFGE, I thank you, Mr. Chairman, for this 
opportunity to offer our views focused on potential employee 
concerns regarding the implementation of the Aviation and 
Transportation Security Act.
    Regardless of the issue of Federalization, I believe we all 
can agree that screening will not improve if the job status of 
screeners is not improved through better pay, better benefits, 
and real job protections. Ultimately, there is no other way to 
recruit the best employees and to keep them on the job.
    Regarding job protections, the act gives unfettered 
discretion to the Secretary to summarily dismiss any Federal 
employee screeners regardless of tenure or proven cause. AFGE 
firmly believes that such unprecedented discretion is 
unnecessary, and we wish to point out that already during the 
lengthy 1-year probationary period a Federal employee may be 
immediately fired for virtually any or no reason. In the 
context of these particular inspection jobs, competent, focused 
supervisors should be able to easily weed out the bad actors 
within a very short time.
    Following the probationary period in a nonsecurity context, 
under 5 U.S.C. 4303, a Federal employee can be fired or demoted 
with 30 days notice. In accordance with elementary notions of 
due process, that employee can then appeal his or her case. 
However, according to the Office of Personnel Management, a 
very small number of dismissals and demotions are reversed 
through such appeals, and it is also important to point out 
that the employee is off the Federal payroll. They are off the 
Federal payroll while the appeal is pending.
    More importantly here, where airport security is now a 
national security issue, under 5 U.S.C. 7532 an employee may be 
suspended without notice and then removed after such 
investigation and review as considered necessary by the agency 
in the interest of national security. In that context the 
agency need not provide the employee the rationale for 
dismissal, and the agency's decision to dismiss that employee 
is not subject to appeal.
    Thus, in the context of airport screeners and airport 
security, we believe these existing Title 5 management 
authorities to remove these workers are already extremely broad 
and sufficient.
    The new law also gives the Secretary unprecedented 
discretion to determine the compensation packages and job 
protections of the Federal employee screeners, 
``notwithstanding any other law.'' AFGE believes here, too, 
that such unlimited discretion is unnecessary and actually 
counterproductive to maintaining a high quality work force. 
There is simply no reason for Federal employee screeners to be 
treated differently than other Federal employees with respect 
to their pay, benefits, and after the fact job protections.
    The report language to the conference report encourages the 
Secretary to ensure that screeners have access to Federal 
health life insurance, retirement benefits, and whistleblower 
protections. We believe, though, that fixing terms and 
conditions of employment in statute would ensure that the 
lowest bid mentality that so undermined contractor airport 
screening will not be repeated after Federalization of the 
function. Therefore, AFGE urges the Congress to revisit the 
issue to expressly provide Federal employee airport screeners 
with the same compensation packages and job protections as 
other Federal employees.
    It is clearly not in the interest of any American who 
values her or his freedom to fly to undermine the Federal 
Government's ability to recruit and retain the best airport 
screeners by making them second class Federal employees. AFGE 
does not believe it is the intention of either law makers or 
administration officials to allow such a scenario to unfold.
    AFGE looks forward to ensuring that Federal employee 
screeners are treated equitably vis-a-vis other Federal 
employees with respect to issues like pay, health insurance, 
EEO rights, life insurance, retirement benefits, the right to 
organize and be represented by unions and whistleblower 
protections. The rights of Federal employees to organize and 
bargain collectively in particular serve as a check against the 
office politics and the pressures not to disclose safety 
violations identified by the whistleblower group, Government 
Accountability Project, and its argument in favor of 
whistleblower protections for airport screeners.
    With respect to matters concerning public safety, it often 
falls to rank and file Federal employees to alert the Congress. 
At will employees like these screeners will not risk coming 
forward. Such warnings are most likely to be encouraged when 
the employees with the relevant information can go safely, even 
anonymously to their union that will protect them from 
arbitrary retaliation. Thus, it promotes the interest of the 
millions of American air travelers if the screener work force 
is free of coercion and free to organize.
    Finally, there is no plausible rationale for denying 
Federal employee screeners the right to organize. AFGE is proud 
to represent tens of thousands of other Federal employees 
engaged in public safety, such as Bureau of Prisons 
correctional officers, DOD police, law enforcement officers 
throughout every agency, INS employees, and firefighters. 
Moreover, today airport customs officials are represented by 
unions, as are the skilled machinists, the baggage handlers, 
the mechanics, the air traffic controllers and those in the 
front lines, the flight attendants and pilots. There is no 
reason to treat a Federal employee screener's right to organize 
any differently. AFGE will work with the administration to 
ensure that Federal employee airport screeners have the right, 
if the workers so elect, to be represented by a union.
    Again, Mr. Chairman, thank you for holding an important and 
timely hearing. I look forward to answering any questions that 
you and your colleagues may wish to ask.
    [The prepared statement of Mr. Roth follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Ose. Thank you, Mr. Roth.
    Our final witness is Paul Hudson, who is the executive 
director of the Aviation Consumer Action Project. Thank you for 
joining us today. For 5 minutes.
    Mr. Hudson. Thank you Mr. Chairman, Congressman Tierney. My 
name is Paul Hudson. I'm executive director of the Aviation 
Consumer Action Project [ACAP], which is a nonprofit 
organization that since 1971 has acted as a voice and ear for 
the public on major aviation issues. ACAP has been a national 
advocate for strengthened aviation security measures since the 
1980's and has been a member representing the public on the 
FAA's Aviation Security Advisory Committee and its Aviation 
Rulemaking Advisory Committee since 1991. In 1998, I co-chaired 
the security group's Working Group for Public Education, and 
since 1989 I've testified about a dozen times before Congress 
and two Presidential commissions on the subject.
    Since September 11th, I served on the FAA's Ad Hoc Aviation 
Security Subcommittee, which was evaluating new aviation 
security technologies and procedures, and was on the team 
evaluating airport screening.
    I would like to thank you very much for holding this 
hearing today. With the enactment of legislation last week, 
this is a very timely and very important next step. What are 
the details, what are the regulations going to be? Before 
getting into that, though, I need to mention the goals that we 
need to keep in mind.
    First, obviously is to prevent a repeat of the September 
11th attacks or any variation thereof whereby U.S. civilian 
aircraft are used as weapons of mass destruction. Second, to 
protect airport transportation, which is an important part of 
the Nation's infrastructure and our way of life.
    As we go through the process of regulation, we also need to 
keep in mind a unique feature in this type of regulation; that 
is, that the details of security regulations, unlike other 
types of regulation, are secret. This means that the level of 
congressional oversight must be at a higher level and also you 
must have a new aviation--excuse me--a new Transportation 
Security Advisory Committee that has highly effective public 
members because there is no peer review, there is no public 
comment process, there is no public scrutiny that normally 
applies in this field. Otherwise, we fear that the egregious 
policies of the past, some of which contributed to the success 
of September 11th, could potentially even be repeated, 
obviously not to the same thing but different ones in the same 
vein.
    Moreover, the FAA practice of granting largely unrestricted 
waiver and exemptions to air carriers, airports, and others 
would be also likely to continue, we feel. The first test of 
the new system is going to be who the people the administration 
appoints to lead the effort. The second test will be what those 
people do, particularly in the key areas of security 
regulations and standards. The third test will be the 
performance of the new agency in the coming months, and the 
final test will be whether additional large scale aviation and 
transportation terrorism is prevented.
    Congress needs to be kept up-to-date and needs to have 
appropriate oversight in each of these areas. With regard to 
transportation security personnel hiring criteria, in addition 
to the things that are mandated in the act, we feel there 
should be national security background checks. And with the pay 
and benefits having been effectively tripled for screeners, 
hiring can and should be on a competitive basis, with only the 
best being hired for training, those who meet the high 
standards, surviving training and only those who pass a 
probationary period being retained.
    Concerning employee training, there should be a minimum of 
30 days training for all security personnel, or 175 hours. This 
is the same or less than what we have in many other areas of 
security. Proficiency tests and occasional spot testing are 
inadequate. The current system fosters boredom, constant small 
talk and a general lack of seriousness.
    I've indicated in my testimony we need a universal in-depth 
screening system, and I would refer you to my written testimony 
for the details of that.
    We also feel that cockpits need to be triple sealed and 
secured. In my testimony before the House and Senate, our first 
point was you must secure the cockpits. That's only been 
partially done to this point. There needs to be a reduction in 
carry-on luggage to levels that the screening system will be 
able to detect reliably at least 95 percent of prohibited 
items. We need frequent testing of screening with test objects 
as exercises as well as winner take all type gotcha tests we 
have now. And, since most screeners will never face a 
terrorist, unlike law enforcement officers, we need to utilize 
military-type exercises and gaming techniques. Otherwise, 
people will not maintain the level of alertness no matter how 
in principle they may be motivated.
    With regard to where we start, I think a model aviation 
security program and training facility needs to be established 
at Reagan National Airport. It has all the ingredients needed 
for that and, if we're going to have a national uniform 
standard, we need to have a center, especially to start out 
with.
    Regarding employee and passenger identification, the 
industry is heavily pushing ``smart cards.'' These things would 
have fingerprint aspects to them. Face recognition is another 
technology that's being pushed. We feel they have a role to 
play, particularly for access of employees to sensitive areas, 
but they should not be issued to enable passengers to bypass or 
avoid standard security checks. Smart terrorists will be able 
to obtain them. And, even trusted employees, there is always a 
danger of them going to the dark side. If you look at the 
profiles which are outlined in my testimony of smart 
terrorists, most of them would be able to obtain these smart 
cards.
    Now, there's often confusion about reducing the risk of 
aviation bombings. The things that need to be done in that area 
are not the same for the most part as anti-hijacking measures. 
Installing hardened cargo and baggage containers would be a 
very important first step. Passenger bag matching still is 
valid. None of the historical aviation bombings have involved 
suicide bombings and many involve dupes.
    Explosive detection equipment for screening of checked 
baggage, this needs to be expedited, with regulations if 
necessary, to ensure that we have the equipment in the 
legislative timeframes. There is presently only one 
manufacturer that makes the stuff and we're going to have to do 
something to change that if we want to have the congressional 
mandates met.
    Mr. Ose. Mr. Hudson, the red light went off because I 
turned it off, but if you----
    Mr. Hudson. I'm not going to go through the rest of it, but 
I would just conclude by saying that the challenges and 
terrorist threats we now face, especially in aviation security, 
are immense, but the resources of this Nation are also 
enormous. The Federal Government needs to place its full power 
and energies to secure the skies over America, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Hudson follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





    Mr. Ose. Thank you, Mr. Hudson. I want to preface my 
questions by conveying to Ms. Friend and Mr. O'Brien the 
sentiment of the Congress regarding your colleagues who aren't 
with us today and to Mr. Hudson for your loss. We're going to 
try to do everything we can to prevent that from repeating 
itself, and I thank you all for coming here today to talk about 
it.
    I want to go to a question we dealt with in the last panel 
having to do with the level of tolerance to accept, whether in 
terms of what gets through or performance in the screening 
process. Mr. O'Brien--were all of you here for the previous 
panel's testimony so you heard the body of the conversation? Do 
you have any thoughts on, as we set this system up, with these 
rules and regulations, the issue of zero tolerance, where 
should we be on that spectrum as it relates to either the 
interview screening process or the performance level of the 
folks in that process?
    Mr. O'Brien. Obviously, in the interviewing-screening 
process, applicants should be held to the highest standards, of 
course. This is similar to people or personnel who are involved 
in safety critical endeavors as well. However, as far as 
disciplinary or firing situations, I would suggest that there 
may be some value in looking at the safety programs that are 
currently in effect. We have programs now that apply to certain 
safety disciplines where, if there is a deliberate violation of 
a regulation or a deliberate act that compromises safety or a 
criminal act, then there is no recourse for the individual.
    However, if the act or situation is not deliberate or 
inadvertent and an individual reports on him or herself, then 
there is an investigation undertaken jointly by the oversight 
responsibility, in this case maybe the FAA or TSA, the employer 
and, if the union is involved, a union representative. 
Corrective action is identified. FAA has veto power over 
whether that corrective action is appropriate or not when 
agreed appropriate action is taken.
    So, I think something like that might be considered for 
compliance with security procedures. No matter how good the 
procedures are, there may be faults with the procedure 
development itself. If employees recognize those faults through 
self use and report on those faults and they're analyzed 
properly, then I think disciplinary action in that particular 
case is not warranted.
    Mr. Ose. Ms. Friend.
    Ms. Friend. We believe that aviation security has to be a 
series of layers and the first line of defense must be on the 
ground. Training today, is to keep the aggression off from the 
aircraft. So, to that extent we strongly support the most 
comprehensive and inviolate as possible first line of defense 
on the ground, but, having said that, we also advocate on 
behalf of our members the concept of trained to proficiency. We 
believe strongly that a person who interviews and is qualified 
for the job deserves the best possible training and that a 
failure is most often attributable to a failure in the training 
process, not in the individual.
    However, we also support Mr. O'Brien's position that 
someone who deliberately compromises aviation security clearly 
falls outside the realm of a training issue. Part of my oral 
testimony that I left out in order to meet the 5-minute limit 
really did focus on the projected training for the security 
screeners. There's been some talk of a minimum number of hours. 
We think it's premature to set a minimum number of hours. We 
believe that an expert in aviation security should develop a 
comprehensive training program and then tell us how many hours 
that will take to offer to the new Federalized security 
screening force.
    Mr. Ose. Mr. Roth.
    Mr. Roth. Mr. Chairman, first of all, I want to say very 
clearly for the record that AFGE is not in the business of 
defending poor performers, people who could not do competent 
airport screening. The purpose of my testimony was to let you 
know that there are current tools in existing law which are 
extremely broad that are not used properly by supervisors, such 
as probationary periods and such as 7532 of title 5. I don't 
know how many of you are familiar with that provision on 
national security. It's very broad. If someone is on the lines 
and they are deemed a national security problem, they are gone 
immediately. They don't even find out why.
    The other thing is there's a difference between zero 
tolerance and no right of an appeal after the fact. It is 
counterproductive if you give these people no rights. Where a 
workplace may be very arbitrary, there may be arbitrary conduct 
that the workplace--sometimes there are politics, with a small 
``p,'' at a small workplace, and a supervisor can be allowed to 
run rampant and can be allowed to coerce, terrorize, or 
actually, you know, put fear in a workplace so that they will 
not come forward with safety violations. They have no union, 
they have nowhere to go. They will leave. You know, there are 
environments where you have hostile supervisors and you've got 
to go along to get along. You must have some balance in the 
system, and we think the after-the-fact appeal, because 
mistakes are made, although in most cases employees lose, let's 
face it, 80 percent, that means that, in 20 percent of the 
cases, there was a mistake made, bad supervision, improper 
motive on the supervisor. But, to be able to just say that an 
employee is not meeting a standard where there's no right of an 
appeal to show that you did meet the standard I think goes way 
too far.
    So, we're not in business to protect a poor performer, 
someone who has proven to be a poor performer, but also not to 
have a counterproductive set of rules that has people leave the 
agencies as soon as they're trained and go off to Customs, INS, 
where they are strongly unionized and these types of small 
``p'' politics and games are not played.
    Mr. Ose. Mr. Hudson.
    Mr. Hudson. With respect to this discipline approach, we 
would say, for any serious infraction, you should remove the 
person first and then have the due process follow. It's a 
similar process that's used with air traffic controllers. We 
also support, however, having whistleblower protection for 
these people. We think that's very important as a preventative 
against corruption or other abuses. With regard to minor 
things, poor performance, there should be penalties for poor 
performance and the approach that has been taken in the 
existing system, which, as I see, is in some of the 
legislation--I'm not sure whether it got into the final bill--
is that you can fail a proficiency test and you get some 
remedial training and you go back. No one who fails proficiency 
tests should go back until they pass the proficiency test.
    Thank you.
    Mr. Ose. We up here have the red lights too. I want to make 
sure I just synthesize. None of you has objection to removal of 
someone from the front line, so to speak. It's the summary 
dismissal issue absent retraining or an appeal process, the 
``due process'' I think was the phrase that you used, Mr. Roth. 
You think that protection should remain in the rules and 
regulations; is that accurate, Mr. O'Brien?
    Mr. O'Brien. That is correct.
    Mr. Ose. Ms. Friend.
    Ms. Friend. Correct.
    Mr. Ose. Mr. Roth.
    Mr. Roth. That's correct. I would make one more point on 
whistleblower protection. It's very rare to have an individual 
whistleblower. It's much more common to have a whistleblower go 
through a union or another group. So just to say we're going to 
give you a whistleblower right, that is not going to get it 
done. People--the experience, the studies even from special 
counsel, people are too afraid to put themselves forward alone.
    Mr. Ose. Mr. Hudson, did I synthesize your remarks 
accurately?
    Mr. Hudson. Yes.
    Mr. Ose. My time has expired. We'll have another round. Mr. 
Tierney.
    Mr. Tierney. Thank you. Mr. Roth, I think the problem that 
some people had, you hit right on the head that with this 
legislation some people objected to having the security issue 
Federalized because they didn't want it unionized and that was 
it, and I think Mr. Mica, without putting words in his mouth, 
raised at least part of that reservation when he made the 
comment in his testimony that it takes 3\1/2\ years to 
discipline a Federal employee. Would you address that for us?
    Mr. Roth. I have some problems with that because they throw 
out that number and there may be a case and there may be an EEO 
process, but in most cases, like I told you, during the first 
year they're gone immediately and there are no appeal rights. 
After that, you have 30 days and then, you know, you have a 
right to respond. Under this law, you don't even have a right 
to notice and respond, and it may not even be Constitutional in 
that regard. There are some cases on that. However, in most 
cases you have 30 days, you have a right to respond, and then 
you're gone and you have a case. You have a day of hearing.
    Now, it may go on appeal to some other Federal agency for 
months and months where you would never hear about it and no 
one works on it, but that doesn't mean the employee is not 
gone. There's no paycheck, they have to move on. So, on paper, 
you may have a case, but that person's gone within about 30 
days.
    Mr. Tierney. Thank you. I think it was helpful to clarify 
that. Ms. Friend, you indicated that you thought flight 
attendants should have access to non-lethal means of protection 
on a flight. Can you give me some specifics of examples of what 
you mean by that?
    Ms. Friend. I sat on the Secretary's Rapid Response Team 
for Aircraft Security, and we specifically recommended a list 
and an evaluation of a list of non-lethal devices, including 
stun guns, tasers, mace, pepper spray. We have asked for really 
four areas of defense in the cabin. Now that we have fortified 
the cockpit doors, which we absolutely support, it's important 
to change the procedures to say that the pilots will not 
compromise the security of the cockpit by coming out to assist 
in any disturbance no matter how difficult. We have asked for 
additional training, including upgraded security training, 
personal defense training. We've asked for an emergency means 
of notification to notify the cockpit that a hijacking was in 
progress, and we've asked for access to a non-lethal defense 
weapon.
    None of these things are intended in any way to suggest 
that flight attendants could somehow overpower any violent 
hijacker, but they are intended to buy us time in the cabin, to 
buy our passengers time in order to allow the pilots to get the 
aircraft on the ground safely, which is where the only real 
help in that situation is.
    Mr. Tierney. Thank you. I would like each of you to address 
the issue of a trusted passenger concept, if you would. I've 
heard it mentioned several times, the apparent insinuation 
being that there are some people that could be screened once 
rigorously and after that they have got some special passage 
onto the plane without going through the customary and every 
occasion flight review. Share with me your feelings on that 
concept, starting with Mr. O'Brien, and we'll work from my left 
to my right.
    Mr. O'Brien. Conceptually the proposal has some merit. I 
have not seen any specific details of how it actually would be 
employed, what kind of screening would be required in order to 
make you a so-called trusted passenger, or what kind of 
identification system would be set up and how the trusted 
passengers would actually be handled. In concept, though, it 
has been offered as a means of expediting the flow of traffic 
through the checkpoints, and for that purpose it has merit. 
Until we see some more details on exactly how it would be 
employed, we just sort of view it as a potential means of 
expediting the flow through checkpoints but with some 
reservations.
    Ms. Friend. We actually strongly object. We're very 
concerned that it creates a section of our aviation security 
that could be easily compromised. It's entirely inconceivable 
to me that some sort of identification could be created that 
could not be forged, that is not subject to fraud. In addition, 
you have to ask yourself once this is issued, is this a 
lifetime pass or does the person have to subject themselves to 
repeated security in order to renew their sort of license to 
bypass security? So we have grave reservations and in fact 
object to the concept.
    Mr. Roth. Well, of course I'm unqualified, let me say it 
upfront. I'm just an air traveler. However, when you talk about 
something----
    Mr. Tierney. Then somebody should gag you and go on----
    Mr. Roth [continuing]. And with Mr. Yeffet here before, I 
think there are other places I would rather have been, but when 
you talk about a system needing zero tolerance, that is a 
system that would need zero tolerance. As an air traveler, I 
would be concerned that you would have the system and they 
would be not inconvenienced but how would you have the zero 
tolerance in place. Again that's as a nonprofessional.
    Mr. Hudson. We're strongly opposed to this concept as well 
as the proposals that I've seen. Not only can smart terrorists 
probably and undoubtedly will get these cards, and some 
proponents have talked about prescreening as many as 50 million 
Americans, but you have to remember that we're dealing with 
very smart terrorists today. They are professionals at identity 
theft. A number of the September 11th terrorists used that 
method, document forgery, creation of fictitious identities, 
and when you get one of these smart cards, as they're called, 
they're only as good as the initial establishment of identity.
    So for instance, the leader of the September 11th attacks 
had a graduate degree in city planning, and a number of the 
other terrorists have either had pilot's licenses or pilot 
training, other master terrorists have had engineering 
backgrounds, many of them have frequent flier cards, and they 
have the full panoply of ID that we expect of a normal American 
traveler. In order to screen out that sort of thing, you would 
have to engage in some very legally questionable profiling 
involving not only national origin, religion, a whole host of 
things that I think would cause serious problems. The airlines 
that I've heard their proposals of anyway are not talking about 
any kind of negative profiling with respect to this. It would 
be nondiscriminatory and probably not restricted even to 
Americans.
    The other big problem with it is that it's in effect 
reverse or positive profiling and instead of saying this is a 
group that we need to give extra attention to because there 
could be a higher correlation of them being a terrorist, we're 
going to say, well, this group are good guys and we don't have 
to worry so much about them or we don't have to worry about 
them at all.
    Profiling historically has been a failure in aviation 
security. If we go back to the original anti-hijacking profile 
system in the 1960's, before metal detectors, before x-ray 
machines, we were up to almost one hijacking a week and we had 
a profiling system, essentially an eyeball profiling system at 
that time. Profiling has had its successes, but it's also had 
dramatic failures. They tried to profile the Unabomber for 6 
years. It failed. And, in the case of the CAP system, which is 
the current profiling system, that obviously failed to check or 
detect any of the 19 hijackers on September 11th, even though 
apparently six or seven of them should have been flagged.
    So profiling, whether it's negative or positive, has major 
problems. It is necessary to do it, but it's not something you 
can rely on over a universal system.
    Mr. Ose. Thank you, Mr. Tierney. I want to followup on a 
couple specific questions. Mr. O'Brien, you heard Mr. Yeffet's 
testimony about the personal interviews. Do you support that as 
part and parcel of our security processes?
    Mr. O'Brien. Yes, indeed. It is an important element in our 
overall systems approach to security.
    Mr. Ose. 100 percent or a select portion of the passenger 
load?
    Mr. O'Brien. I'm not sure that we heard 100 percent 
requirement, even though we've vacillated around that. We 
talked about a mini set of questions, and depending on how that 
mini set of questions went, then you went into more detailed 
questioning. So it was sort of a domino-type system depending 
on the initial reaction. So if you take it from that 
perspective, everybody would get some initial questioning. So 
it would be 100 percent from that perspective. The detailed 
questioning would entirely depend upon what kind of response 
you got from the initial questions.
    Mr. Ose. But the initial questions, the 2-minute drill, so 
to speak, you would support that?
    Mr. O'Brien. Some version of that, and again that would 
depend upon the other components of the total systems approach 
to doing business.
    Mr. Ose. The third and the fourth and the fifth layers, so 
to speak?
    Mr. O'Brien. Exactly. We spend a lot of time talking about 
the events of September 11th and these 19 individuals and what 
would and would not have worked. There's no guarantee that 
we're going to ever face that scenario again, so that speaks 
highly to a systems approach that takes a much broader view of 
potential terrorists threats. Some that we've already 
experienced, some that we know about but have not experienced 
yet. So we really do need a systems approach. Everything from 
the 100 percent bag matching to you name it, many of the things 
that we haven't talked about today that are included in some of 
the testimony I've read.
    Mr. Ose. You support something more than the present two 
questions?
    Mr. O'Brien. Yes.
    Mr. Ose. Ms. Friend, how about the flight attendants?
    Ms. Friend. We do, and it may be as simple as just changing 
the way you ask a question so it's no longer a ``yes or no'' 
question, but I think the real issue here is who is asking the 
question. It's not unlike our testimony on the airlines using 
flight attendants to do aircraft security sweeps. We are now 
asking overworked airline ticket agents to ask these questions 
while they're also trying to check bags and assign seats and 
check connections.
    It should be a function of a newly created Transportation 
Security Agency and those personnel to ask these questions. 
Their only job is security.
    Mr. Ose. OK. You guys deal with this every day. Mr. Roth 
and I are probably occasional travelers. Mr. Roth, your opinion 
on the----
    Mr. Roth. I will tell you that the last time I traveled, 
which was about a month ago, I got asked the questions by the 
person at the baggage counter, and I had to keep pushing my 
driver's license to them. They were more concerned about 
someone not being on the shift, and, therefore, the line piling 
up and I was like begging, you know, don't you want to see it.
    Mr. Ose. Your point, take that off the guy at the gate or 
the counter.
    Mr. Roth. I agree with taking it off. They're not paying 
attention to it. And it's silly to ask the question if you're 
not going to look at the person and take it seriously.
    Mr. Ose. Mr. Hudson.
    Mr. Hudson. I would agree that we need to take questioning 
away from the airline personnel and give it to the new security 
personnel. I think a few questions for everyone are 
appropriate. And, as I've indicated in my written testimony, 
certain people should, in effect, get an interrogation.
    Mr. Ose. Let me work backward from my right to the left. 
Mr. Hudson, you support a match between the passengers and the 
baggage, 100 percent, if I understand your testimony.
    Mr. Hudson. Yes. The reason for that and why it's so 
important initially is we don't have the screening equipment, 
we don't have the bomb detectors in place. If we had 100 
percent screening of baggage with bomb detectors as well as 
machines to detect weapons for the carry-ons, that would not be 
so important.
    Mr. Ose. OK.
    Mr. Roth.
    Mr. Roth. I'm going to have to pass on that one.
    Mr. Ose. Ms. Friend.
    Ms. Friend. Yes, we support it. Initially it may be the 
only means we have to improve the security of our checked 
baggage because there aren't enough of the explosive detectors 
to do 100 percent screening. But even after we have sufficient 
equipment to do 100 percent screening, those machines are not 
absolutely guaranteed 100 percent accurate either. And so, the 
continued use of passenger baggage match adds another layer of 
security.
    There was a study done--MIT participated in it--in the past 
few years on baggage match in the domestic market. And, it is 
not impossible. That has been the position of the industry all 
along that it would bring the entire system grinding to a halt. 
This study proved that, in fact, that is not true. That it 
could be implemented domestically and be integrated into the 
system without a great deal of trouble. They simply don't want 
to do it.
    Mr. Ose. Mr. O'Brien, how do the pilots feel?
    Mr. O'Brien. We support 100 percent screening and 100 bag 
match. I disagree entirely with the opinions I heard earlier 
today that it would grind the system to a halt. We have seen 
technology that obviously is in the prototype stage now that 
would make passenger bag matching a very simple process. It 
could be used far beyond just the matching process. So it's a 
matter of time to get all this implemented, but we should have 
or continue to have a goal of 100 percent screening and 
matching.
    Mr. Ose. All right. I just want to summarize. You all 
support the initial questioning something more than yes or no. 
You support, those who responded, passenger baggage match. My 
time has expired.
    Mr. Tierney.
    Mr. Tierney. Thank you. I just want to ask, I think, Ms. 
Friend and Mr. Roth, and maybe Mr. O'Brien has some people that 
his organization represents that might be affected. Is there 
any reason that any of you see that people that were laid off 
as a result of the events of September 11th, a significant 
number of people that are associated with the airline industry, 
could not be re-employed as part of the security operation with 
the proper physicals and training?
    Ms. Friend. None that I'm aware of.
    Mr. O'Brien. I think that several of the people who have 
been laid off could make very valuable contributions to what 
we're trying to do in the security sense.
    Mr. Roth. AFGE would agree with that.
    Mr. Tierney. Ms. Friend, you also agree?
    Ms. Friend. Yes.
    Mr. Tierney. It's something that a number of us have been 
advocating. I assume that you would have some reason if you 
didn't agree with us, that's why I asked the question. The last 
question I have is basically a throw-away question out of 
curiosity. Mr. O'Brien, is there a valid reason why people 
flying from New York or Boston to Washington on the shuttle 
cannot get out of their seat in the last half hour of the 
flight?
    Ms. Friend. It's only to National.
    Mr. O'Brien. As I understand, as Ms. Friend just said, it's 
going into National.
    Ms. Friend. It's only into National Airport, and that's 
because Reagan National is guaranteed the gold standard of 
aviation security, unlike the rest of the airports in this 
country, which apparently are only guaranteed second rate 
aviation security. I can tell you in case you want to know what 
happens if you do get up because----
    Mr. Ose. Tell us.
    Mr. Tierney. Why is it that you can't get up?
    Ms. Friend. I can only assume that they somehow think that 
adds to the security. But----
    Mr. Tierney. As representative of the flight attendants, do 
you think it adds to the security?
    Ms. Friend. No, it's window dressing.
    Mr. O'Brien. It obviously is a first step in a profile that 
has been developed, a scenario of events that leads to a 
particular situation. And those who are very anxious from a 
security perspective to prevent that sequence of events from 
ever occurring----
    Mr. Tierney. The sequence of events we have profiled from 
September 11th is you get up early in the flight where there's 
still a lot of fuel on board, not in the last half hour when 
you're drained out.
    Mr. O'Brien. Absolutely true. But there are other--without 
getting into details, there are other scenarios other than 
September 11th. I only remind you that we should not be 
concentrating----
    Mr. Tierney. I agree with you fully on that. It's a rule 
that on its face without some further explanation doesn't seem 
to be helpful. But I'm willing to admit that it may well be. We 
may just be thinking of all the possibilities.
    Ms. Friend. It's also true on takeoff out of Reagan 
National, you're not allowed out of your seat during the first 
30 minutes after departure, the first 30 minutes inbound. 
Theoretically that somehow makes people feel more comfortable 
if no one is up moving around.
    The fact is, Mr. O'Brien can speak to this better than I 
can, but I think the flying distance between Dulles and the 
Capitol building, if you will, is maybe 3 minutes as opposed to 
1 minute from National. So I'm not sure why National is treated 
differently.
    Mr. Tierney. What's good for one is good for the others in 
that.
    Mr. O'Brien. Maybe it has something to do with perception.
    Ms. Friend. Window dressing, John.
    Mr. Tierney. Thank you all very, very much for your 
testimony.
    Mr. Ose. Would the gentleman yield?
    Mr. Tierney. Yes.
    Mr. Ose. She offered to tell us what happened if you do get 
out of your seat.
    Ms. Friend. Oh, you don't know.
    Mr. Ose. I stay in my seat.
    Ms. Friend. We had an incident a couple of weeks ago where 
someone got up and ignored the direction to sit down. He was 
tackled and handcuffed by two air marshals who held him with 
guns drawn while the aircraft diverted to Dulles.
    Mr. Ose. The plane diverts to Dulles and you're under 
arrest.
    Ms. Friend. You're under arrest, right. And, all of your 
fellow travelers are greatly inconvenienced and will never 
forget your face as long as they live, I'm sure.
    Mr. Ose. Mr. Hudson, you had something you were going to 
add there when Mr. Tierney was questioning.
    Mr. Hudson. I just think that it doesn't take too much 
imagination to understand why they have that rule now, 
particularly coming in and out of Reagan National Airport.
    Mr. Tierney. I guess the imagination would be if you have 
secured the cockpit, then it takes a little more imagination to 
figure why it is important for the last half hour, the last 45 
minutes, the last hour, the first 45 minutes, the first hour.
    Mr. Hudson. I would remind you we had another incident of a 
plane coming to Chicago where an individual got up and charged 
the cockpit door and crashed into the cockpit and was subdued 
by passengers. Although we have some more bars on the doors, 
we, by no means, have fully secure cockpits at this time. 
Having a lot of people standing up at the bathroom next to the 
cockpit or other places is viewed by many as a would-be 
potential security risk.
    Mr. Ose. I have a couple more questions, if I might. 
There's no provision in the law addressing the non-medical, 
non-firemen, non-EMT person who is asked by a flight attendant 
or otherwise assumes a responsibility to act in a situation--
where's that chart? If I understand, under the voluntary 
emergency help, there is no liability for police, firemen or 
EMTs in terms of providing that assistance to crews in an 
emergency. What happens if there are no police, firemen, or 
EMTs and a passenger is asked, for instance, as they would be 
in an exit row? Is that something that needs to be covered in 
rules and regulations in terms of some sort of a buffer from 
liability when properly asked?
    Mr. O'Brien. I think in our testimony we suggested 
expanding the types or numbers of individuals that would be 
covered. But certainly it's an issue that needs to be looked 
at. I'll just give you an example. There are some organizations 
who have people travel quite a bit and are connected with the 
aviation industry. And, those people let themselves be 
identified to the crew or to the cabin staff as people who will 
assist if called upon.
    Mr. Ose. PWAs, people like that?
    Mr. O'Brien. Many. Right. And that kind of assistance in 
today's environment, I think, is appreciated. So those kind of 
individuals we would hope would not be exposed to some kind of 
liability as a result of being the good samaritan.
    Mr. Ose. Ms. Friend, would the flight attendants agree?
    Ms. Friend. Exactly. I think it's unrealistic to expect 
that after the events of September 11th, any passenger is going 
to just sit quietly as told in a situation like that. And 
certainly people who are willing to come forward and help and 
offer their assistance should not be punished. They should not 
be subject to some liability.
    Mr. Ose. Mr. Roth, any observations?
    Mr. Roth. I couldn't agree more. As a passenger, I've been, 
you know, flying and in a row when we've all said to each other 
anything happens, you know, we're going for him. So yes, I 
think there should be some sort of immunity, some good faith 
immunity built into the statute or the regulations.
    Mr. Ose. Mr. Hudson.
    Mr. Hudson. Yes, we would support good samaritan type laws 
in that area.
    Mr. Ose. These would be rules and regulations at this 
point.
    So, the other issue that I was checking into the red eye 
flight last night, which I was just fascinated by, was the new 
carry-on language. I'll read it to you. It says each passenger 
is allowed one carry-on bag. Exception: one personal item, such 
as a purse or laptop, a briefcase, a diaper bag, a camera case, 
or a small backpack.
    In addition, a food item, an assistive device, one duty-
free bag, a child-restraint device, a coat/jacket or an 
umbrella. The maximum free bag allowance is three bags. You can 
check 2 and carry on 1. You can check 3 and no carry-ons. It 
would seem to me that--I mean, it just seems very simple to me 
that the less baggage you put through the terminal-based 
screening process and into the cabin, the less your challenges 
from a carry-on security issue and the quicker you can get the 
people seated and the plane out.
    Now, this was effective October 9th. Do the regulations 
that the Department of Transportation is going to consider need 
to look at this again and more clearly define what may be taken 
on both in terms of size and number? I mean, I've seen people 
they walk down the--what's the thing that goes out to the 
plane?
    Ms. Friend. Jetway.
    Mr. Ose. They walk down the jetway, they have a young 
child, they leave the child restraint device, you know they're 
carriage or whatever, they take the baby seat inside, they put 
the thing down. I understand that one. But beyond that, I don't 
understand why--boy, I'm going to get in trouble on this one, I 
don't understand why someone needs a suitcase, a clothes carry 
bag, a briefcase. Am I missing something here?
    Mr. O'Brien. No, you're not missing anything at all. Beyond 
security, there are many safety implications associated with 
the carry-on baggage. I think that Pat can probably speak more 
closely to the problems in the cabin itself with carry-on 
baggage. I know that our organization, as many as 15 years ago, 
had petitioned the FAA to limit the number of carry-on bags and 
the size of the bags for operational safety concerns.
    I'm not talking about things flying about the cabin. We're 
concerned about weight and balance. There was one major airline 
that almost lost a couple of airplanes taking off out of a high 
altitude airport in South America, it turned out, when they 
weighed the carry-on baggage, they were several thousand pounds 
overweight because of the carry-on baggage.
    The normal dispatch requirements today give you a basic 
number that you allocate to each carry-on bag that you assume 
is going to come on. It bears no resemblance to surveys that 
have been conducted weighing actual bags in busy terminals. 
People have done this; universities have done some studies; 
students have done doctorate and masters theses on it.
    There are some very good papers written about the situation 
from a safety perspective. Couple that to the point you're 
making.
    Mr. Ose. They didn't need to kill all those trees and write 
all those papers to do the common sense thing here.
    Ms. Friend. John is right. This is not a problem that was 
created by the events of September 11th. In fact, we have a 
petition that's been pending for some time with the FAA asking 
them to issue a carry on baggage rule, a single bag and with a 
specific size so that there isn't all that interpretation. They 
have not responded to our petition. However, in response to the 
events of September 11th, they did issue a security directive 
with this so-called one plus. That security directive could be 
amended, eliminated at any time. We absolutely believe that a 
carry-on bag limitation and a size limitation on that baggage 
must go into the regulations in order to ensure that we don't 
go back to business as usual as soon as the FAA gets a chance.
    Mr. Ose. I do think this speaks directly to the efficacy by 
which we process people who are getting ready to board on 
planes. I mean, it just----
    Ms. Friend. We don't tell them what they need to know. We 
leave them up in the air.
    Mr. Ose. Then they argue with the gate agent.
    Ms. Friend. That's right. The industry has resisted it as 
well because, of course, they don't want to inconvenience or 
have disagreements with their passengers. But, we noted in 
their testimony today that even they recognize the fact that if 
you're looking for a needle in a haystack, if you reduce the 
size of the haystack, your chances are better of finding the 
needle. We think that supports our carry-on baggage argument 
completely.
    Mr. Ose. Mr. Hudson, anything?
    Mr. Roth.
    Mr. Hudson. I think you should know the background for an 
issue which predates September 11th. Most surveys have been 
done of particularly frequent travelers find that one of the 
No. 1 things they want more of is more space for carry-on 
luggage. Now, there's a couple reasons for that. One is 
convenience and one is security. Not security of the airplanes, 
but security of the baggage. Statistic is 1 out of 200 bags is 
presently mishandled by the airlines, damaged, lost, delayed, 
whatever. Most passengers have gone through that once, don't 
want to have it repeated.
    So there has been a great increase over the years of use of 
carry-ons. The other reason is convenience. It takes generally 
at least another 20 minutes if you check your bag, and now, in 
the current environment, it's going to take you probably 
somewhere between an hour and 2 hours extra if you check your 
bag versus go to carry-on.
    On the other hand, we have changed our position from 
supporting the prior two-bag limit, and we now favor going to 
one small bag that can be hand-searched, which is more 
stringent than what we have now. And, we also feel that people 
should voluntarily reduce their carry-ons. And we suggested 
that for a large airport, perhaps you should have a line for no 
carry-on luggage that would go faster and would encourage 
people further to go to checking luggage.
    Mr. Ose. Not like the 10 items or less where you get people 
with 12 items but no carry-on?
    Mr. Hudson. Yes.
    Mr. Ose. Thank you. I have no further questions. We're 
going to leave the record open for 10 days. We may have 
questions we'd like to direct to you in writing. We would 
appreciate your response. Today's hearing did show how much 
work we have to do on this issue to ensure smooth 
implementation of this new law. I encourage DOT to reflect on 
these panels' combined wisdom in terms of implementing these 
recommendations. Our witnesses, including the four of you, 
truly have given us compelling testimony and you are experts in 
your field. We appreciate your coming here.
    I just want to repeat what I said in my first remarks, we 
are talking about people's lives here. And, from my 
perspective, we have no room for error. I may not agree with 
some of your comments about how to get to zero tolerance, but 
I'm hopeful that, in the course of the testimony today, we were 
able to give the agencies that are going to issue these 
regulations some sense of what we're doing.
    My compliments to your people, Mr. O'Brien, Ms. Friend. Mr. 
Roth, thank you for coming. Mr. Hudson, I can't even imagine 
what it must be like to do what you do. You have our thoughts 
and prayers. Thank you all for coming.
    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
